<html>
<title> - OPPORTUNITIES FOR ENERGY INNOVATION AND OTHER POTENTIAL SOLUTIONS TO HELP ADDRESS GLOBAL CLIMATE CHANGE</title>
<body><pre>[Senate Hearing 116-302]
[From the U.S. Government Publishing Office]


                                                      S. Hrg. 116-302

                 OPPORTUNITIES FOR ENERGY INNOVATION AND  
                  OTHER POTENTIAL SOLUTIONS TO HELP 
                  ADDRESS GLOBAL CLIMATE CHANGE

=======================================================================

                                HEARING

                               BEFORE THE

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 11, 2019

                               __________
                               
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]                               


                       Printed for the use of the
               Committee on Energy and Natural Resources

        Available via the World Wide Web: http://www.govinfo.gov
        
                               __________
                                                     

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
36-264                      WASHINGTON : 2020                     
          
--------------------------------------------------------------------------------------       
        
        
        
               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                    LISA MURKOWSKI, Alaska, Chairman
JOHN BARRASSO, Wyoming               JOE MANCHIN III, West Virginia
JAMES E. RISCH, Idaho                RON WYDEN, Oregon
MIKE LEE, Utah                       MARIA CANTWELL, Washington
STEVE DAINES, Montana                BERNARD SANDERS, Vermont
BILL CASSIDY, Louisiana              DEBBIE STABENOW, Michigan
CORY GARDNER, Colorado               MARTIN HEINRICH, New Mexico
CINDY HYDE-SMITH, Mississippi        MAZIE K. HIRONO, Hawaii
MARTHA McSALLY, Arizona              ANGUS S. KING, JR., Maine
LAMAR ALEXANDER, Tennessee           CATHERINE CORTEZ MASTO, Nevada
JOHN HOEVEN, North Dakota

                      Brian Hughes, Staff Director
                     Kellie Donnelly, Chief Counsel
            Chester Carson, Senior Professional Staff Member
                      Jed Dearborn, Senior Counsel
                Sarah Venuto, Democratic Staff Director
                Sam E. Fowler, Democratic Chief Counsel
           Luke Bassett, Democratic Professional Staff Member
                            
                            
                            C O N T E N T S

                              ----------                              

                           OPENING STATEMENTS

                                                                   Page
Murkowski, Hon. Lisa, Chairman and a U.S. Senator from Alaska....     1
Manchin III, Hon. Joe, Ranking Member and a U.S. Senator from 
  West Virginia..................................................     3

                               WITNESSES

Majumdar, Dr. Arun, Jay Precourt Provostial Chair Professor, 
  Department of Mechanical Engineering, and Co-Director, Precourt 
  Institute for Energy, Stanford University......................     5
Silverman, Abraham, Vice President and Deputy General Counsel, 
  NRG Energy, Inc................................................    12
Ladislaw, Sarah, Senior Vice President; Director and Senior 
  Fellow, Energy and National Security Program, Center for 
  Strategic and International Studies............................    40
Sandalow, Hon. David B., Inaugural Fellow, SIPA Center on Global 
  Energy Policy, Columbia University.............................    56
Bryce, Robert, Senior Fellow, Manhattan Institute................    67

          ALPHABETICAL LISTING AND APPENDIX MATERIAL SUBMITTED

Alexander, Hon. Lamar:
    Hearing Statement: ``One Republican's Response to Climate 
      Change: 
      A New Manhattan Project for Clean Energy''.................    84
Barrasso, Hon. John:
    S. 2614, the Greenhouse Gas Emission Atmospheric Removal 
      (GEAR) Act from the 110th Congress.........................   117
Bryce, Robert:
    Opening Statement............................................    67
    Written Testimony............................................    69
    Responses to Questions for the Record........................   157
Cassidy, Hon. Bill:
    Transcript of a YouTube video (TEDxDanubia) entitled, ``Why 
      renewables can't save the planet,'' by Michael 
      Shellenberger, dated January 4, 2019.......................   100
King, Jr., Hon. Angus S.:
    Map entitled, ``Nobody Lives Here: The 4,871,270 U.S. Census 
      Blocks with zero population (2010)''.......................   110
Ladislaw, Sarah:
    Opening Statement............................................    40
    Written Testimony............................................    42
    Responses to Questions for the Record........................   149
Majumdar, Dr. Arun:
    Opening Statement............................................     5
    Written Testimony............................................     7
    Responses to Questions for the Record........................   133
Manchin III, Hon. Joe:
    Opening Statement............................................     3
Murkowski, Hon. Lisa:
    Opening Statement............................................     1
Sandalow, Hon. David B.:
    Opening Statement............................................    56
    Written Testimony............................................    58
    Responses to Questions for the Record........................   154
Silverman, Abraham:
    Opening Statement............................................    12
    Written Testimony............................................    14
    Responses to Questions for the Record........................   145

 
 OPPORTUNITIES FOR ENERGY INNOVATION AND OTHER POTENTIAL SOLUTIONS TO 
                   HELP ADDRESS GLOBAL CLIMATE CHANGE

                              ----------                              


                        THURSDAY, APRIL 11, 2019

                                       U.S. Senate,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:04 a.m. in 
Room SD-366, Dirksen Senate Office Building, Hon. Lisa 
Murkowski, Chairman of the Committee, presiding.

           OPENING STATEMENT OF HON. LISA MURKOWSKI, 
                    U.S. SENATOR FROM ALASKA

    The Chairman. Good morning, everyone. The Committee will 
come to order.
    We are here to continue our ongoing dialogue and 
conversation about the electricity sector, climate change and 
opportunities for innovative technologies that will further 
reduce our greenhouse gas emissions.
    During a hearing we held in March, we discussed the 
reductions that have already taken place in the electricity 
sector, largely driven by nearly flat demand growth, low cost 
natural gas and the declining cost of renewable technologies 
like solar. Although we saw an uptick in 2018 driven by robust 
growth, U.S. emissions have declined in seven of the last ten 
years and are now 14 percent lower than in 2005. We know that 
that is impressive, but we also know that these trends are not 
always being replicated around the world. In fact, we know for 
a fact they are not.
    When Dr. Fatih Birol, who is the Executive Director of the 
International Energy Agency (IEA), appeared before the 
Committee in February, he noted that global demand for 
electricity is on track to increase by 60 percent by 2040. As a 
result, electricity is now the ``largest target for energy 
investment.''
    Greater use of electricity will almost certainly lead to an 
increase in global emissions. The opportunity we have in front 
of us is to foster an innovation ecosystem here in the United 
States that can lead to energy breakthroughs that deliver 
cleaner, more affordable and more reliable energy technologies.
    The United States leads the world in energy innovation. Our 
national labs and universities, as well as the private sector, 
are developing technologies that could be deployed around the 
world to reduce our emissions. And that could occur through a 
number of pathways, whether it is advanced nuclear, carbon 
capture, utilization and storage, energy storage or a 
technology that is just starting to show its potential.
    We have seen firsthand the opportunity for moving to lower-
emission technologies realized in my state. In Igiugig, an 
Alaskan village with a year-round population of about 70 
people, a little bit more in the summer, they are installing a 
turbine system that will create emission-free electricity using 
river currents. The City of Kodiak generates nearly all of its 
electricity, almost 100 percent, from renewable resources, 
including hydropower and wind. In Southeast Alaska, the Haines 
Brewing Company is going to add more solar to their facility to 
power more of their beer production. And it is just kind of an 
added benefit that they make really great beer on top of it.
    [Laughter.]
    Alaska is feeling the effects of climate change, but our 
communities are making strides to responsibly reduce their 
emissions. Alaskans are pioneers, and we kind of view ourselves 
as this ``living laboratory'' for innovation. We figure if you 
can prove the technology out there in a sometimes harsh 
environment where it is very remote, if it works in the Arctic, 
trust me, it can probably work just about anywhere else.
    We also recognize the transition to cleaner resources will 
take time. There is no overnight, magic-wand solution, as much 
as many would want it to be that way. But we simply do not have 
unlimited amounts of taxpayer dollars. We cannot simply replace 
markets with mandates and call it good. So even as we take real 
steps to promote clean energy, know that I am going to be 
working to fully protect our energy security as well as keeping 
our energy costs affordable.
    This is a timely discussion, but also a nuanced one on the 
policy side. We have some impressive witnesses with us this 
morning to join the conversation.
    We have Dr. Arun Majumdar, Co-Director of the Precourt 
Institute for Energy at Stanford. You have been a frequent 
visitor here before the Committee, and we are very pleased to 
have you back and for your leadership here.
    We have Ms. Sarah Ladislaw, who is the Director and Senior 
Fellow at the Energy and National Security Program for the 
Center for Strategic and International Studies (CSIS). We are 
pleased to have you here.
    Mr. Abe Silverman, we are kind of going back and forth 
here, Vice President and Deputy General Counsel at NRG Energy. 
It is good to have you before the Committee.
    Mr. Robert Bryce, at the end, is a Senior Fellow at the 
Manhattan Institute, and Mr. David Sandalow is the Inaugural 
Fellow at the Center for Global Energy Policy at Columbia 
University.
    So we have a great panel to help us discuss innovative 
solutions that will work to reduce our greenhouse gases.
    With that, I turn to my friend and Ranking Member, Senator 
Manchin.

              STATEMENT OF HON. JOE MANCHIN III, 
                U.S. SENATOR FROM WEST VIRGINIA

    Senator Manchin. Chair Murkowski, thank you so much for 
convening the Committee and second hearing on climate change 
for this Congress, and we are very proud about that. And thank 
you all for being here. We really appreciate you bringing your 
expertise to the Committee.
    I understand that we will also be having tech-focused 
hearings in the near future to take a hard look at carbon 
capture, nuclear, energy efficiency, renewable and storage 
technologies. I appreciate your ongoing commitment to 
innovation as a key solution to the climate crisis. I think 
this Committee has begun a very productive conversation. I am 
looking forward to continuing that with our witnesses today and 
in hearings ahead.
    This year the Committee has begun to establish the facts 
about greenhouse gas emissions, particularly in the power 
sector, and we are looking at this problem from both domestic 
and international points of view. So far, the expert testimony 
we have heard has clearly stressed the need for technological 
advances to tackle the issue here at home but also strengthen 
America's position as a global leader in this space.
    Since our last hearing on climate change, the International 
Energy Agency issued a report that showed energy demand around 
the world grew by 2.3 percent over the past year. Fossil fuels 
filled a lot of that demand, including in Asia, where coal-
fired power plants have an average age of 12 years which means 
they are going to be around for a while. They are not going to 
retire any time soon.
    Here in the United States we need to focus on 
commercializing technologies that can be used on our fossil 
fuel power plants and exported to markets around the globe. 
Projects like Petra Nova and NET Power capturing carbon dioxide 
from coal and natural gas power plants are shining examples of 
what is possible.
    We need a moonshot to get carbon capture technologies to 
commercialization, and I am very happy to be introducing a bill 
today, along with my friend here, Chairman Murkowski, that will 
set the ambitious authorization levels that are needed. Our 
bill will focus the Department of Energy (DOE) on coal and 
natural gas technologies, carbon utilization and storage and 
atmospheric carbon removal.
    The DOE and our national laboratories play an essential 
role in leading low-carbon energy innovation. Just last week 
Secretary Perry testified to the outstanding capabilities of 
the DOE and the labs in bringing new technologies to life, and 
many of those developments have kept our energy cost affordable 
in much of the country while reducing greenhouse gas emissions.
    Programs like DOE's Advanced Research Projects Agency for 
Energy, or ARPA-E, and the Title 17 loan programs invest and 
demonstrate those technologies across the U.S. The Department's 
investment in solar research and development, for example, led 
to advances in solar panels that when demonstrated with 
financing from the loan programs kickstarted fast growing 
utility scale solar plants across our country.
    The DOE plays a critical role in advancing innovation, and 
I believe their good work can be amplified through public-
private partnerships. For example, Chairman Murkowski's Nuclear 
Energy Leadership Act (NELA), which I co-sponsored, will 
leverage these partnerships to build demonstration reactors 
that will play a vital role in decarbonizing the industrial 
sector. I believe in innovation, not elimination.
    Now as former Energy Secretary Ernest Moniz has said, we 
need a ``green real deal.'' As he, Bill Gates and other 
innovation champions have pointed out, we need a practical plan 
to address climate change that does not take technologies off 
the table or leave workers and communities stranded.
    At the end of the day we need reliable, dependable and 
affordable power. So let's make headway on carbon reduction 
technologies for fossil fuels while also moving ahead with 
advanced nuclear and storage technologies. Let's also take a 
closer look how we manage the growing additions of renewable 
energy with a need for electric infrastructure and reliability.
    We need to continue pushing the limits on research and 
commercialization so that every region finds the solutions that 
work best, because it is not a one-size-fits-all.
    In that vein, I also believe it is our duty to recognize 
the historical contributions of energy producing states like 
West Virginia and Alaska. And I know we seem like maybe the 
couple talking about what we need and what needs to be done, 
but when you look at the devastating effects that climate has 
had in our states, it is real. It is not a myth. I will 
continue to say this, if the solution to climate crisis leaves 
West Virginia coal communities behind, then it is not a 
solution in any community that is left behind. As we move 
forward with the climate conversation, I am going to continue 
to consider global, national, regional perspectives.
    With that, Chairman Murkowski, I think we have a big job 
ahead of us to find solutions, but I think that we are up to 
the task. And as part of the movement toward pragmatic 
solutions, I look forward to hearing from each and every one of 
you on this distinguished panel that we have assembled today.
    So thank you for coming.
    The Chairman. Thank you, Senator Manchin.
    We do have a great deal to talk about this morning, and I 
look forward to the respective contributions from each of you 
followed by questions from our panel here.
    I am particularly pleased that the Senator from Tennessee 
is here because he has laid down, as he usually does, a little 
bit of a road map from his perspective on some of these issues. 
So I look forward to the exchange.
    I introduced each of you a little bit earlier, so let's 
just go straight into it.
    Dr. Majumdar, if you would like to lead off the panel?
    We would ask you to try to keep your comments to about five 
minutes. Your full statements will be included as part of the 
record.
    Welcome.

 STATEMENT OF DR. ARUN MAJUMDAR, JAY PRECOURT PROVOSTIAL CHAIR 
    PROFESSOR, DEPARTMENT OF MECHANICAL ENGINEERING, AND CO-
  DIRECTOR, PRECOURT INSTITUTE FOR ENERGY, STANFORD UNIVERSITY

    Dr. Majumdar. Chair Murkowski, Senator Manchin and all the 
members of this Committee, thank you for inviting me and giving 
me the honor to speak out here.
    Just a little bit about my own background. I was the 
Founding Director of ARPA-E and also the Acting Under Secretary 
for Energy in the Department of Energy and thereafter was the 
Vice President of Energy at Google and now running the Stanford 
Precourt Institute for Energy. And I've been involved as 
advisor to many businesses and governments on this particular 
issue.
    I just want to talk about four things: Number one is the 
impact and urgency of climate change, very briefly. The 
technology innovation that is needed for a transition to a low-
carbon economy and how to get there. And then two policy 
innovations. One is a new infrastructure initiative to provide 
the infrastructure to deliver the low-carbon solutions to our 
people, and some market and regulatory policy to create the 
demand for low-carbon technologies. And finally, a booster shot 
on education because we need our people to be able to provide 
these services and be beneficiaries of this transition.
    Very quickly on climate change. We normally talk about 1.5 
or 2 degrees which is accurate, but I think we miss the point. 
It is the extreme that these weather events create that really 
hurts the people and our agriculture and our economy and our 
livestock. And I think we should be talking about the extreme 
weather condition. These extremes are happening more often, and 
we know that is going to happen. The uncertainty is we don't 
know where it's going to hit next. So we are really exposing 
all our citizens to a game of Russian Roulette.
    To avoid the extremes, we have really, if you want to keep 
the temperatures below two degrees, we have really 20 years or 
less. That's the urgency that we have. And after that, the 
emissions have to be zero. That's the challenge that we have.
    The question is what do we need to do? What are the 
technology innovation solutions? Well, we know about the good 
news stories. ULTRA achieved solar and wind. We know about the 
batteries that is leading to electrification and some of the, 
and the unconventional oil and gas.
    That's all terrific but we still have 80 percent of our 
energy coming from fossil fuels around the world. And we need 
new technologies, grid-scale storage at one-tenth the cost of 
lithium-ion batteries, small modular nuclear reactors, new ways 
of air conditioning, zero net energy buildings at zero net 
cost, carbon-free hydrogen that can enable the steel and 
concrete industries to decarbonize and, of course, carbon 
capture and sequestration and utilization and finally, I would 
also add the use of the food and agriculture sector, not only 
to increase the food productivity but also to suck out carbon 
from the atmosphere and keep it and store it on the ground.
    This is, if you think about it, this is essentially a new 
industrial revolution. It is a remake of much of our global 
economy. We're talking about electricity, oil and gas, 
transportation, steel-concrete construction and food and 
agriculture. That's about $10 trillion per year of global 
economy. And this is a global race. No question about it.
    And so, if you are to take the lead in this effort, it will 
decide the economic growth, the environment, the geopolitics 
and international security of the 21st century. That's what is 
at stake. And so, we must seize this opportunity.
    As I've said many times before, we need to invest in R&D, 
ARPA-E. Budgets should be about $1 billion a year, but also the 
applied energy programs of the basic energy sciences in the 
Department of Energy.
    As was pointed out, we have some of the best universities 
and national labs. The scientific infrastructure that we have 
in the United States is the best in the world. And we have 
amazing--as the Director of ARPA-E, I realized how much of an 
amazing capacity we have in the United States to innovate and 
deliver on these investments.
    The two-policy innovation. Quoting Justice Brandeis, ``Our 
states and local government act as laboratories of democracy.'' 
I think the diversity of energy needs that I have seen around 
the country in your states can offer this. This is the strength 
that we have to become the laboratories of this low-carbon 
industrial revolution that I was talking about.
    In 1936 we had a Rural Electrification Act for the way the 
Federal Government provided low interest loans while local 
electric power cooperatives to bring electricity services to 
millions of Americans around the country and that transformed 
America.
    We need a 21st century initiative to infrastructure to 
provide these low-carbon services to our people, and I've 
talked about what those technologies are. We need federal, 
state and local governments, along with the private sector to 
create the innovation pipeline for technologies and also to 
convene and create the permitting and speed up the permitting 
processes and create innovative policies to stimulate private 
sector investments.
    The markets and regulation, I think there's a lot of 
discussion on carbon pricing. I think that will accelerate the 
transition of the carbon, the price on carbon.
    And lastly I would say that education and training, we need 
the people to be able to get the benefit of this and provide 
the infrastructure that we need for this low-carbon economy.
    Let me stop here.
    Thank you very much.
    [The prepared statement of Dr. Majumdar follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairman. Thank you, Dr. Majumdar.
    Mr. Silverman, welcome.

   STATEMENT OF ABRAHAM SILVERMAN, VICE PRESIDENT AND DEPUTY 
               GENERAL COUNSEL, NRG ENERGY, INC.

    Mr. Silverman. Thank you. Good morning. My name is Abraham 
Silverman, on behalf of NRG Energy.
    NRG is a 100 percent competitive power company which means 
that we have no captive customers and it is our shareholders, 
not ratepayers, that fund all of our initiatives. We have over 
three million retail customers nationwide with a large 
generation fleet that spans the dispatch order. We have 
nuclear. We have coal. We have carbon capture. We have natural 
gas. Battery, solar, wind and demand response. I think that's 
everything. So we bring a very practical practitioners view to 
this discussion today.
    You know, when we think about climate change, we really 
start from two fundamental premises. The first is in order to 
avoid the worst consequences of climate change, we need to 
rapidly decarbonize our energy sector at a price consumers can 
afford. If we don't have affordability, we will fail. The 
second premise is that clean energy is not exempt from the laws 
of economics, nor should it be. You know, we look at American 
history and we see innovation and competition and competitive 
forces drive down prices, increase service and drive innovation 
in every possible sector. Markets are not broken. They simply 
need to be retooled for the 21st century needs and our concerns 
about carbon.
    So when we think about what we need to do to drive the 
innovation, we need to refocus those markets on two primary 
goals.
    One is competitive choice and the other is competition. So 
when we--we sell a lot of green product nationwide. Let's talk 
about choice. Our customers want this product. Let's give it to 
them. Right now, government, at many levels, restricts our 
ability to sell green power to customers and restricts the 
customer's ability to buy the power that aligns with their 
values. Why do we do that? We should get out of the way and let 
people shop and pick who they want to deal with. They want to 
fire your utility? Go ahead. Why not allow that?
    We hear a lot of talk these days about big tech and, you 
know, problems, trust concerns, about them operating a platform 
and then selling products on the very platform that they 
dominate. That is exactly what happens today in the energy 
sector.
    Everything we do when we innovate, we know that if we take 
it into a new market, outside of Texas which will solve this 
problem, we know that the local monopoly utility is likely to 
sell the identical product and compete with us, often using 
ratepayer funds. It's very difficult to innovate in that 
environment.
    And whether we talk, whether we work toward ensuring a 
commercial environment free from unfair competition and 
domination by utilities, that's what the green new deal says or 
whether we want to quarantine the monopoly, as conservative and 
free market advocates put it. There's a shocking amount of 
consensus that enabling consumer choice will drive green 
outcomes faster and with less government regulation.
    So step two, and these two steps are inseparable. Step two 
is that we need a robust, competitive market for free--for 
clean energy with understandable and predictable rules, 
operating is free as possible from intervention by government 
policymakers who want to pick politically driven winners and 
losers.
    I attached a white paper to my testimony that lays out some 
specifics for, I think, a very innovative clean energy program 
that could be implemented at the state or federal level, but 
I'm going to give you three highlights.
    First is we need to define the clean energy attribute that 
we want our market to get. Let's start there. We could use the 
available climate science to set targets and we will use the 
competitive market to achieve those targets in the least 
possible cost.
    Second, the environment doesn't care how a carbon-free 
megawatt of electricity is generated. So why pay more if 
there's lower cost green options available?
    We should have a market that rewards all innovators and all 
carbon-free megawatts equally.
    Fourth, let the competitive market work because it will 
drive down prices and get us to where we need to be.
    Unfortunately, the very concept of a pro-innovation, 
competitive approach to energy markets is under attack. In the 
absence of federal leadership, many states are falling prey to 
subsidies and to parties and companies that would rather 
compete for subsidies than compete in the market to deliver 
power, clean power, at the lowest possible cost.
    So three, sort of, rules of thumb. One, don't redistribute 
precious tax dollars or ratepayer dollars via subsidies for 
technology that once it leaves the R&D phase. Second, don't 
lock customers into excessively priced contracts for specific 
clean energy technologies when clean energy, when other lower 
cost--when lower cost sources of clean energy are available. 
And three, certainly don't provide corporate welfare to 
existing power plants that are profitable under the guise of 
promoting carbon-free power.
    I'll go ahead and stop there.
    Thank you.
    [The prepared statement of Mr. Silverman follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairman. Thank you. You have a lot more there, and we 
will have an opportunity to pursue that in the questions. So 
thank you for that, Mr. Silverman.
    Ms. Ladislaw, welcome.

 STATEMENT OF SARAH LADISLAW, SENIOR VICE PRESIDENT; DIRECTOR 
AND SENIOR FELLOW, ENERGY AND NATIONAL SECURITY PROGRAM, CENTER 
            FOR STRATEGIC AND INTERNATIONAL STUDIES

    Ms. Ladislaw. Thank you, Chairman Murkowski, Ranking Member 
Manchin and members of the Committee. Thank you for the 
opportunity to appear before you today.
    I'd also like to additionally thank the Committee for its 
commitment to fostering a constructive dialogue on the urgent 
need to tackle global climate change challenges.
    The United States is one of the most energy and innovation-
advantaged nations on the planet. I firmly believe that we have 
every conceivable tool at our disposal to chart a viable 
pathway to a net zero emissions, resilient energy system at 
home and also provide global leadership in the strategies and 
technologies that can bring sustainable and affordable energy 
supplies to the growing and developing populations of the 
world. We simply need to decide to do it.
    Your previous hearings on this topic have been robust and 
very useful. I have four major points to add to the already 
strong and important messages that you've received.
    First, as both of you mentioned at the outset, energy is 
playing an increasingly important role in how states and 
regions think about economic opportunity. The state level 
interest can be an important catalyst for innovation in climate 
solutions as well as creating the economic opportunity sought 
by states.
    Federal level policymakers should pay close attention to 
how energy development, innovation clusters, worker retraining 
programs and energy policies and incentives in general fulfill 
or fall short of delivering on the expected economic outcomes 
at the state level.
    Most pertinent to this hearing, there are important lessons 
learned about how to create successful innovation clusters and 
help make the most out of R&D spending at the state level. 
Federal involvement in these clusters can help shape them to be 
more successful.
    Second, it's true that innovation defines the art of the 
possible when it comes to meeting society's basic energy needs 
and it's at the heart of U.S. economic competitiveness. But 
innovation is the means to a solution and not a solution in and 
of itself. Innovation in this context, must be harnessed to 
achieve certain societal goals, and it is in setting these 
goals that the biggest disagreements often exist.
    Currently, the international community has organized itself 
around three energy relevant goals. Reduce emissions for the 
purposes of dealing with climate change, eradicate energy 
poverty, and ensure secure and resilient energy systems.
    The second important takeaway for this Committee is to use 
these agreed upon global goals to drive the relevant 
conversations around climate change both within your 
jurisdiction and across the committees with whom you work.
    Too often, these three challenges are pitted against one 
another to suggest that achieving one means neglecting or 
working against the other. While tradeoffs do exist, the 
solutions are not mutually exclusive and innovation and climate 
policies should work toward solutions that contribute to 
achieving all three goals simultaneously and reject the notion 
that one goal is more important than the other.
    The third main message is that we need to seriously commit 
to a robust innovation agenda, and Senator Alexander's bill is 
one example of how to do that.
    Relative to the challenges we face that all-of-the-above 
energy challenge is in the danger of becoming a cliche for 
muddling along without making any decisions. We need an all in 
on the all-of-the-above strategy where we redouble our 
commitment to make every resource compatible with the needs of 
a 21st century energy strategy, low-carbon, cost competitive 
and secure.
    Among experts there is a great deal of agreement about the 
suite of technologies we need to drastically reduce emissions. 
Supporting all of these solutions includes but should not be 
limited to increased R&D spending.
    Moreover, in a world where we're confronting large-scale 
industrial competition from other countries, particularly 
China, we should consider more deliberately creating an 
industrial strategy around certain technologies where we want 
to compete for a host of climate competitiveness, security and 
economic reasons. Advanced nuclear, carbon capture and 
sequestration, battery storage and electric vehicles are all 
areas that immediately come to mind.
    The fourth and final takeaway for this Committee is that 
moderate climate policy need not be mediocre. In my written 
testimony I give two examples. Greater support for energy 
efficiency through DOE programs, efficiency standards, 
regulations and tax incentives and also, the implementation of 
policies like a clean energy standard. They're all places where 
moderate federal climate policy could make a really big 
difference.
    The key to moderate climate policy is to use policy and 
regulatory mechanisms that people recognize, trust and use 
today but be ambitious about their targets and implementation. 
There will be ongoing efforts to build support for economy wide 
strategies like a carbon tax which will be necessary as part of 
a suite of policies to develop deep decarbonization.
    But there are things that we can do to make notable 
progress on this issue right now and are needed to supplement 
the impacts of a more robust approach to innovation.
    Thank you.
    [The prepared statement of Ms. Ladislaw follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairman. Thank you, Ms. Ladislaw.
    Mr. Sandalow, welcome.

  STATEMENT OF HON. DAVID B. SANDALOW, INAUGURAL FELLOW, SIPA 
      CENTER ON GLOBAL ENERGY POLICY, COLUMBIA UNIVERSITY

    Mr. Sandalow. Thank you, Chairman Murkowski, Ranking Member 
Manchin and all members of the Committee on Energy for the 
opportunity to testify today.
    I've been privileged to appear here several times before, 
and I've observed your long tradition of constructive, 
bipartisan dialogue.
    I've worked on the topic of today's hearing, energy 
innovation and climate change, for many years on the White 
House staff, as an Assistant Secretary of State, as an 
Assistant Secretary of Energy and as Acting Under Secretary of 
Energy. Today I'm honored to be the Inaugural Fellow at 
Columbia University Center for Global Energy Policy.
    My testimony today will have three core points.
    First, energy innovation is central for fighting climate 
change. In the past decade dramatic innovations have begun to 
change the energy sector. Solar and wind power costs have 
fallen dramatically, for example, but more is needed. To help 
cut carbon emissions at the speed required in the decades 
ahead, we'll need innovation in many areas. The highest 
priorities, in my view, include energy storage, floating 
offshore wind, industrial heat, heavy duty road transport, 
aviation, carbon capture, utilization and storage including 
direct air capture of carbon dioxide and cheap, passably safe 
nuclear reactors. I discuss each of these areas in more detail 
in my written testimony which is submitted for the record.
    My second and perhaps most important point is that 
innovation alone won't solve climate change. Innovation is 
essential for fighting climate change, but it's not enough. The 
most innovative low-carbon technologies won't help fight 
climate change unless they're deployed, and widespread 
deployment of low-carbon technologies often requires a range of 
policies. The building sector offers a classic example. Many 
simple technologies for improving the energy efficiency of 
buildings are readily available, but they sit unused due to 
features of the real estate market. Policies such as building 
codes and appliance standards are necessary.
    More broadly, access to low cost capital is especially 
important for moving innovative technologies to market. 
Historically, this has been a significant challenge for low-
carbon technologies and without government programs to reduce 
capital costs, many innovative low-carbon technologies will 
never make it to market. Removing subsidies enjoyed by fossil 
fuel technologies so that low-carbon technologies can compete 
on a level playing field is an especially important tool for 
moving innovative low-carbon technologies from the lab to 
market. And finally, global engagement is essential for solving 
climate change. Policies to promote the global deployment of 
low-carbon technologies are essential.
    My third core point is that as a nation we should build on 
our strengths and address our weaknesses when it comes to 
energy innovation. The United States has an extraordinary 
record when it comes to energy innovation. And Madam Chairman, 
as you said, our strengths include our great universities, our 
national lab system and our entrepreneurial culture.
    At the same time, I believe we have weaknesses that inhibit 
our ability to promote energy innovation. One is our broken 
politics. You know, U.S. politics has always been rough, but in 
recent years polarization has been especially extreme. A second 
weakness is a lack of respect for science. It's ironic that in 
a nation with such extraordinary universities and national 
labs, the envy of much of the world, science receives such 
little respect. Top leaders and significant minorities of the 
public reject scientific conclusions on topics as wide-ranging 
as climate change and vaccinations. In my travels in Asia and 
Europe, I often encounter people who are deeply puzzled by this 
phenomenon. And a third weakness I would point to is our short-
term focus both in government and in many parts of the 
investment community.
    So, what can we do to build on our strengths and address 
our weaknesses? Step one, increase federal budgets for energy 
innovation and I applaud Senator Alexander's call to double 
federal funding for clean energy innovation. Second, channel 
U.S. entrepreneurial spirit toward meeting the climate 
challenge. Policies that improve the returns that businesses 
earn from deploying innovative energy technologies are 
essential, that could include tax credits, performance 
standards, eliminating fossil fuel subsidies and a price on 
carbon. Third, build long-term thinking into federal decision-
making on energy innovation with multiyear planning processes 
and investors focusing long-time horizons on their investments.
    So my testimony today has had three core points. First, 
energy innovation is essential for fighting climate change. 
Second, innovation alone won't solve climate change. And third, 
as a nation we should build on our strengths and weaknesses 
when it comes to energy innovation.
    Thanks for the opportunity to testify. I look forward to 
answering your questions.
    [The prepared statement of Mr. Sandalow follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairman. Thank you, Mr. Sandalow.
    Mr. Bryce, welcome.

 STATEMENT OF ROBERT BRYCE, SENIOR FELLOW, MANHATTAN INSTITUTE

    Mr. Bryce. Good morning.
    Electricity is the world's most important and fastest 
growing form of energy. The electricity sector is also the 
biggest single contributor to global greenhouse gas emissions. 
My third point, that right now at current rates of growth, 
about four percent per year, global electricity demand will 
grow and it will rather double in just 18 years. So given those 
facts what should we do?
    Well, first of all we cannot rely on renewables alone. 
Numerous environmental groups and politicians are pushing for 
all renewable energy systems, but the hard truth is that these 
100 percent renewable energy scenarios are nothing more than 
politically popular distractions. These scenarios are neither 
doable nor desirable. These scenarios ignore basic math and 
simple physics. Worse yet, they perpetuate what I call, the 
``vacant land myth,'' the idea that there's endless amounts of 
land out there in flyover country that's just waiting for all 
kinds of renewable energy infrastructure to be built on top of 
it. Nothing could be further from the truth.
    By my count, since 2015 some 225 government entities from 
New York to California have moved to reject or restrict wind 
energy projects. New York has a 50 percent renewable 
electricity mandate by 2030 but dozens of local governments in 
New York have either passed measures restricting or outright 
rejecting wind energy projects.
    You won't read about this in the New York Times, but the 
towns of Yates and Somerset as well as three upstate New York 
counties, Erie, Orleans and Niagara, have spent the last three 
years fighting a proposed 200-megawatt lighthouse wind project 
which aims to put dozens of wind turbines near the shores of 
Lake Ontario. New York's offshore wind plans are being 
vigorously opposed by the state's commercial fishing groups.
    California has a 60 percent renewable electricity mandate 
by 2030, but in 2015 the Los Angeles County Board of 
Supervisors banned wind projects in the county. In February of 
this year, San Bernardino County, the largest county by area in 
America, banned large scale renewable projects throughout much 
of the country. San Bernardino County is the home to two of the 
largest thermal solar projects in America, Abengoa Mojave and 
Ivanpah. Today California has less installed wind capacity than 
it did in 2013.
    Last year high voltage transmission projects designed to 
transport renewable energy across New Hampshire and Arkansas 
were both canceled due to state-level opposition.
    In short, renewable energy alone cannot provide the vast 
scale of energy that the U.S. and global economies demand at 
prices consumers can afford.
    So what is the best approach? In my view, it is N2N, 
natural gas to nuclear. These sources provide the best, no 
regret strategy because they are low-carbon, scalable, and 
affordable.
    Thanks to innovations in the shale revolution, the U.S. has 
become the world's biggest and most important natural gas 
producer. Natural gas helps reduce or helps decarbonization, 
because it emits half as much CO<INF>2</INF> during combustion 
as coal and about a third less than fuel oil or diesel fuel.
    Natural gas has helped cut U.S. CO<INF>2</INF> emissions 
which in 2017 were at their lowest level since 1992. Last year 
the U.S. exported LNG to 30 different countries including 
Kuwait and the United Arab Emirates. It's an open secret in 
Houston that Saudi Arabia is now seeking a long-term LNG supply 
contract with American companies.
    What does the U.S. natural gas sector need in terms of 
federal policy? In my view, nothing. Where federal policymaking 
is needed and needed in a big way is in the nuclear energy 
sector. There is no credible pathway toward widespread, large-
scale decarbonization that doesn't include large increments of 
new nuclear capacity.
    Congress should develop a strategy that includes preserving 
existing plants and nurturing the development and commercial 
deployment of the next generation of smaller, safer, cheaper 
reactors. The Federal Government should support nuclear energy 
because it is emissions free, has extraordinarily high-power 
density, meaning it requires very little land, and it helps 
diversify the electric grid.
    Let me be clear, the nuclear industry faces myriad 
challenges, opposition from some of the biggest environmental 
groups in America including Sierra Club and the Natural 
Resources Defense Council are among them. Many existing 
reactors cannot operate at a profit. New reactors cost way too 
much and, of course, Congress continues to doddle when it comes 
to the issue of nuclear waste storage and disposal.
    But I will reiterate my point. There is no reasonable or 
affordable pathway to decarbonization of the electric sector 
here in the United States or around the world that does not 
include big chunks of new nuclear capacity. If Congress wants 
to foster innovation in nuclear energy, Republicans and 
Democrats will have to forge significant, long-term, and by 
that I mean decadal, commitments toward making that goal a 
reality.
    Thank you.
    [The prepared statement of Mr. Bryce follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairman. Thank you.
    Lots, lots to begin with here this morning. I appreciate 
the contributions of each of you. And clearly, there is an 
agreement that technology is how we address these issues of 
increased emissions or worldwide, global emissions. But as you 
have pointed out very, very clearly, Ms. Ladislaw, you can have 
all the great technology but if we do not have the deployment 
out there, we have not even started to leave the house yet. So 
how we make that leap is part of our discussion here.
    The other thing that I have underlined from your testimony 
that I really appreciate is this recognition that we need to be 
all in on all-of-the-above. When we determine here in Congress 
through our policies, or perhaps our policies by default, that 
we are going to favor one over another by way of subsidies or 
credits or what happens, as you point out, Mr. Bryce, with 
state policies that say we want to have renewables, except we 
do not want your kind of renewable, that is where we start to 
get in our own way here.
    The question that I would pose to you all as a panel is, 
there is no shortage of good ideas with the technologies that 
are out there but we are stumbling in the deployment end of it. 
What should our role be here in the Congress to help facilitate 
to a better level this deployment? I am all in on what Senator 
Alexander has proposed in terms of increasing the funding for 
research and development and doubling up on ARPA-E, but outside 
of the obvious, what more do we need to be doing?
    [The information referred to follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairman. You have indicated, Mr. Sandalow, that we 
need to be focusing on longer-term visioning so that investors 
then are interested in coming to the table. But help me out. 
Let's have this conversation.
    Go ahead, anyone can jump in here.
    Ms. Ladislaw. Well, I'll offer just a couple of ideas. I 
mean, I think, you know, there was a Wall Street Journal 
article that had most of the prominent economists saying that 
the carbon tax is probably the most efficient way of trying to 
send that signal to market.
    I would say most of the people that I talked to in the 
energy field somewhat agree, right? I mean, I've had people 
tell me, CCS wouldn't actually be terribly hard if you had a 
high enough carbon price to at least, you know, be trying more 
of it in the field, right? And so, however those economists 
aren't in Congress, right? That's not, they don't exist here--
--
    The Chairman. Well, that goes back to Mr. Sandalow's point 
about politics.
    Ms. Ladislaw. Yeah, so I think that if you look at like 
policies like a clean energy standard, most states have 
renewable portfolio standards. A lot of them are revising them 
now. They know what they are. They know what they do.
    You could have a federal level clean energy standard that 
tries to build on that, that says well, let's try and--you 
could probably do most of the work that you need in the 
electric power sector, in terms of decarbonizing through a 
policy like a clean energy standard.
    So there are lots and lots of performance-based energy 
standards that you can put in place that say I don't care how 
you get there, but here's the target, here's the goal.
    And we apply some of those standards in our innovation 
programs, right? I mean, be supporting those national 
standards. We just need them echoed out there in the market as 
well.
    The Chairman. Mr. Sandalow?
    Mr. Sandalow. I completely agree with Ms. Ladislaw.
    You know, these clean energy standards, or renewable 
portfolio standards, have been very successful at the state 
level. Applying that to the federal level would be a big step 
forward.
    In some ways, even an easier step could be eliminating 
fossil fuel subsidies. I mean, why are we subsidizing fuels 
that are polluting the atmosphere? If we could get rid of 
those, that would provide a level playing field for some of 
these clean energy technologies.
    And then I would point to the point I made about planning 
in my testimony. You know, it's striking to me some European 
governments, some Asian governments, they set 5-, 10-, 15-year 
targets on these long-term issues and then they adjust as they 
go forward. In this country, we celebrate it when we pass a 
one-year appropriations bill. I think we can to better. And we 
should work to have 5-, 10-, 15-year targets. The Department of 
Energy has tremendous expertise to help with that and really do 
long-term planning in a way that we don't today.
    Mr. Silverman. I was just going to add to that, you know, a 
green grid is largely an economics problem frankly, not a 
technical problem. We can get to, you know, 10, 20, 30, 40 
percent, whatever the standard that we need, whatever the 
climate change science tells us we need to do, we can get to 
that standard. The market can get there using economic 
principles and that really does mean choice and then going 
through and creating the kind of durable market structure that 
will actually attract private capital.
    I know there's always a temptation to want to subsidize and 
to use tax dollars, but really we will be much better if we 
have a public-private partnership where we have a durable 
market structure that drives that kind of private investment. 
You really want to unleash that and bring it into the market.
    And again, that comes back to having that nice, solid 
market. And unfortunately, you know, we've seen really a 
retreat from markets as if somehow markets and green outcomes 
are incompatible. And so, I would love to see this Committee, 
sort of, go at that, go at that issue head on.
    The Chairman. Doctor?
    Dr. Majumdar. If I could just add.
    Energy infrastructure lasts for 50, 60, 70 years. We have 
to think about this as the 21st century game, and we have to 
take the lead on this because the rest of the world also has to 
change.
    Given that, coming back to the planning, the long-term 
planning, I completely agree with some of the things that Mr. 
Bryce was talking about and I outline that in my written 
testimony. This whole idea of looking at 1936 Rural 
Electrification Act, if he could create a similar kind of thing 
to get the clean energy services deployed into our cities and 
towns and villages, that will require the federal, state and 
local governments to come together and streamline the 
permitting and the regulatory process to expedite it.
    We need to create, figure out, how to get private capital 
into the energy system. And there is, Senator Coons and others 
have put a Master Limited Partnerships Parity Act which will 
essentially put everything on a level playing field.
    Talking about the price on carbon. Where markets work, they 
are efficient. We could either have a direct price on carbon or 
an indirect price whether it's a clean energy standard, it's an 
indirect price on carbon. But we need to have to accelerate 
that. Technology innovation is not enough. We need the market 
pull.
    But there are places where the markets don't work. And we 
know. And there are market failures in energy efficiency. 
That's why we have appliance standards. That's why we have 
clean fuel efficiency standards.
    And I would go full force in creating, not just building 
codes which are for design, but actual performance-based 
standards for the buildings across the United States. I think 
if you could do that and provide the infrastructure to deliver 
these solutions, I think that's the transition path that I see.
    The Chairman. Very good.
    Mr. Bryce, you are the only one that has not spoken. We are 
out of time, but go ahead.
    Mr. Bryce. Yes, ma'am.
    My quick comment would be what is the priority? It would, 
I'm sorry I'm a one trick pony here. It's a sense of urgency on 
the deployment of nuclear energy at scale.
    The United States is not the world. The coal sector, 
globally, in the global electric sector, coal's share of 
electricity generation has stayed at about 40 percent for 30 
years. What can supplant coal in developing countries as 
baseload form of electricity generation? It would be nuclear, 
but the U.S. has to play in that game and right now that game 
is being dominated by the Russians, the Chinese, the Indians 
and the South Koreans.
    And that is where the U.S., I think, could make a long-
term, lasting contribution but it would have to be done with 
urgency and it would, it's going to require significant federal 
involvement.
    The Chairman. Thus, the need for NELA.
    [Laughter.]
    Senator Manchin.
    Senator Manchin. First of all, I think, and do you agree, 
that we need increased funding for the DOE as far as technology 
research and development? Everybody agrees on that, okay.
    Mr. Silverman, on the Petra Nova company's carbon capture 
facility in Houston, I had a chance of visiting them. I really 
enjoyed this visit.
    Petra Nova is the only U.S. power plant currently 
generating electricity and capturing carbon dioxide in large 
quantities, about 5,200 tons per day, and I understand over a 
million tons within the first ten months.
    And so, I would ask, of all of you, you have the only 
commercialized experience in that realm. How does it work? What 
have you learned from it? Can it be done? And should it be 
continued?
    Mr. Silverman. Absolutely, it could be done because we're 
doing it. It's an incredibly exciting project, and we're all 
very proud of it.
    I mean, CCS is one of the--carbon capture and sequestration 
is one of the potentially least cost methods of getting to 
fight climate change. You know, it is an experimental project. 
It is absolutely dependent on federal R&D dollars and, you 
know, it is a difficult and frankly, you know, any time you 
deploy a new technology, it always takes a while to get it 
right.
    But you know, when we look forward to a market structure 
that really is an all-of-the-above, if we want carbon-free 
power, let's talk about including letting nuclear compete 
against renewables, compete against carbon capture and 
sequestration, compete against repowering or shutting other 
facilities down.
    If we have that transparent price in that market mechanism, 
we really are looking at an all-of-the-above because we're 
talking about having a market structure that will allow us to 
come in and finance that kind of innovation, particularly as it 
gets more commercialized. I don't think we're there yet. But as 
it gets more commercialized, if we have that transparent market 
structure then all of these technologies will compete and we 
really will find the least cost solution out there.
    Senator Manchin. What I am hearing from all of you is that, 
basically, there is a challenge with renewables, as far as 
where we should go and wherever we are going with it may have a 
road block. I think, Mr. Bryce, you have pointed out the road 
blocks that are out there.
    Now I am for getting it up to the level of power sources 
that we are going to need in order for the country to have what 
it needs, I understand that. What about China and India and 
Asia, where they are coming on so strong with coal, what are 
they going to rely on? That is my concern.
    Global climate is not the U.S. climate, and it is not North 
American climate. And for some reason we lose sight of that. We 
think that if we can basically penalize, or whatever, the rest 
of the world is going to follow suit. I don't see, from what I 
understand, the average coal-fired plant in Asia is what, 11, 
12 years of age? They plan on running them for another 30 
years. What are you all planning to do there? How do we get 
them onboard?
    Mr. Sandalow. Thank you for raising the issue, Senator. 
It's absolutely fundamental to solving this problem.
    You know, the United States is the largest cumulative 
emitter of carbon dioxide over the past 100 years.
    Senator Manchin. Right.
    Mr. Sandalow. With the second largest in the world, but 
last year the vast majority of greenhouse gases came from 
outside the United States.
    Senator Manchin. Absolutely.
    Mr. Sandalow. When you say there's no solution without 
engaging China and India, one core piece is U.S. leadership. 
One thing I hear all the time when I travel is, we think you're 
not doing anything on climate change right now because your 
political leadership is denying the reality of it. And I say, 
that's just not true. Look at the statistics, look at what 
we're actually doing. But that type of political outlook is 
extremely important.
    Then, innovation in low-carbon technologies, I mean when we 
produce cheap solar innovations, when we produce innovations in 
a variety of other areas, they spread around the world. And 
that's going to be a core part of the solution.
    Senator Manchin. Let me just interject, if I could----
    Mr. Sandalow. Please.
    Senator Manchin. ----because our time is running short.
    If that is the case and carbon tax, or carbon pricing, a 
carbon pricing to find the solution for carbon emission is one 
thing. Carbon pricing to basically restructure or redistribute 
the wealth and does not find the solution, does not make any 
sense to me at all. It just really does not make sense to me 
that you are saying we are going to put a carbon price on but 
we are not going to use to find the solution. There is no way 
that China or Asia is going to use this, because they are not 
going to do the same. That is going to be a self-inflicted 
wound.
    Anybody want to jump in on that?
    Ms. Ladislaw. I think there are ways of mitigating the 
impact of a carbon price, and it depends on the pricing 
mechanism, right? So, cap and dividend is a lot of what people 
are focusing on now because----
    Senator Manchin. That is popular, give them a price. Okay, 
fix the problem.
    Ms. Ladislaw. Well, to be honest with you, like, I think 
the appropriate way to think about China is that they're both a 
leader and a lagger in emissions, right? They emit a ton, but 
they're the largest market for low-carbon energy, right? 
They're making that market----
    Senator Manchin. Unfortunately, they are still emitting 
more than we will ever emit. They are polluting more than has 
ever been polluted.
    Ms. Ladislaw. And I think that that's true.
    Senator Manchin. And you think they are going to put a 
carbon tax on?
    Mr. Sandalow. They have, Senator.
    Ms. Ladislaw. They have.
    Senator Manchin. They have?
    Mr. Sandalow. Yes.
    Ms. Ladislaw. Well, they have cap and trade programs and 
their demonstration programs and largely, I think, that that's 
part of----
    Senator Manchin. They won't even run their emissions at 
night. They are not even taking--I mean, their nighttime 
emissions, look at the emissions they have at night versus day.
    Ms. Ladislaw. Right.
    So, quick analogy. I'm from New England so I do hockey 
analogies, right? And I think part of the challenge on climate 
change and technology is to skate to where the puck is going. I 
think that they're investing a ton of money in markets that are 
about low-carbon technology with----
    Senator Manchin. We are talking within a ten-year span, and 
the only way you are going to do it is decarbonizing the use of 
fossil fuels through technology and more nuclear. That is the 
only way I see to quickly get at a ten-year to where we can 
save the planet.
    Ms. Ladislaw. Sure. Just get them into the market.
    Senator Manchin. Go ahead.
    Mr. Silverman. Senator, one thing to keep in mind is the 
greatest threat to our existing coal facilities is subsidies 
because we cannot compete if a state has started handing out 
free money to our competitors. That will kill our coal 
facilities faster than anything else.
    Senator Manchin. Do you mean subsidies to coal plants?
    Mr. Silverman. No, not to--subsidies to coal plants, 
frankly, don't work either, but for a different reason. But 
what I'm talking about are competitors getting subsidies 
whether it be renewable or nuclear subsidies.
    Senator Manchin. I got you.
    Mr. Silverman. They do not work with the competitive 
market, and we rely on the competitive market.
    So the reason a carbon tax actually is preferable from our 
point of view isn't that it's good for coal plants, because 
it's not, but what it does is it has a market mechanism that we 
can then compete against. And it preserves the integrity of the 
existing competitive markets and that actually allows us to 
deploy capital in a much more sensible way because, you know, 
if we are faced with our competitors, other technologies, 
operating basically for free, then there is no more competitive 
market. Ratepayers and consumers have lost the benefits. And 
you know, I would much rather have a tough competitive market 
that I can actually compete in than a market that I can't 
compete at all.
    Senator Manchin. Thank you, Madam Chairman.
    The Chairman. Thank you, Senator.
    Senator Alexander.
    Senator Alexander. Thank you, Madam Chairman.
    Thanks to the panel.
    Ms. Ladislaw, I heard a California physicist who switched 
from being a climate skeptic to a climate believer say this. He 
said, ``When we were little our mothers told us to clean our 
plates because the children in India were starving.'' That was 
a good thing to do, but it did not help the starving children 
in India. He said, ``Climate is a lot the same. We can do 
everything here, but the problem is there.''
    If you look at the statistics, we have reduced carbon 
emissions more than any other country in the last 15 years. 
China has tripled. India has doubled. So if we are looking at 
the near-term, why wouldn't we try to help the rest of the 
world do in the near-term what we have done in the last 15 
years?
    It seems to me what we have done in the last 15 years is 
maintain our nuclear reactors, that is 60 percent of our 
carbon-free emissions, and introduced natural gas and 
conservation in smokestacks and tailpipes. It looks to me like 
natural gas and conservation has been the reason for our 
reduction. What can we do in the next near-term to help the 
rest of the world do that?
    Ms. Ladislaw. There's a lot that we can do. I think selling 
other countries our technology, exporting some of the energy 
that we produce here is a good example.
    I think your focus on if we want nuclear to be part of the 
solution, the United States is going to have to work much, much 
harder to bring some of those advanced nuclear technologies out 
into the field. It's not competitive now, and we're not 
competitive internationally to do that. So I think there are a 
lot of those, sort of, very smart things that the U.S. can do 
to promulgate and, quite frankly, has done that around the 
world.
    We run a project where we connect U.S. states and Indian 
states to try and----
    Senator Alexander. Well, why don't they use natural gas and 
conservation in India and China?
    Ms. Ladislaw. Well, they're trying. I mean----
    Senator Alexander. Well, if it worked for us why wouldn't 
it work for them?
    Ms. Ladislaw. Well, I mean, to be honest with you we've had 
the largest surge in natural gas production over a ten-year 
period of five.
    Senator Alexander. Oh, I know, well why don't they?
    Ms. Ladislaw. Well, they would love to if they could.
    Senator Alexander. Why can't they?
    Ms. Ladislaw. Well, we have a giant industrial base of 
natural gas companies and a huge resource here.
    Senator Alexander. If you can make money there, can you not 
make money in India?
    Ms. Ladislaw. Yes, the resource base isn't there in India 
for unconventional gas.
    Senator Alexander. But I am saying it looks like the 
problem is there in the solution.
    Mr. Bryce, let me move to nuclear with you. Nuclear is 60 
percent of our carbon-free emissions. The estimates are that 15 
to 20 of our reactors, of our 100 reactors, will close in the 
next ten years. Let's say 30 close. That eliminates, by my 
math, 18 percent of our carbon-free emissions. That is the 
total amount of carbon-free emissions that wind produces in the 
United States after 25 years of billion dollars of subsidy.
    So a great many people who are urgently concerned about 
climate change are switching their view to say it is really 
wrong not to emphasize nuclear.
    So you and I believe that. Exactly what should we do in the 
next near-term, in addition to the advanced reactors which are 
down the road, for results? What should we do to keep 15 to 20 
reactors from closing in the next ten years and to producing 
more nuclear power in our own country?
    Mr. Bryce. It's a very difficult problem, Senator, and Mr. 
Silverman and his company is facing this.
    I think, to me, one of the simplest ways to address it is 
do a contract for difference. If these nuclear plants can show 
that they're operating at a loss, subsidize them to the point 
where they can compete and/or get made whole in the wholesale 
market.
    But the U.S. electricity market is extraordinarily 
fragmented. There are a lot of players and there is going to be 
a lot of opposition to that kind of, call it what it is, a 
subsidy.
    But I agree with you that if those plants close, they're 
going to be replaced by natural gas-fired power plants. I'm 
pro-gas but that means an increase in CO<INF>2</INF> emissions.
    Senator Alexander. Right.
    Let me use my last question for Dr. Majumdar.
    As you know I have always thought that carbon capture is 
the holy grail of what we are talking about because if we ever 
could commercially capture it at a cost that mattered and find 
something to do with the result of what we had captured, why, 
we could burn coal everywhere in the world and since we know 
how to deal with sulfur, nitrogen and mercury and that would be 
carbon.
    You worked on that some at ARPA-E. What did you find? Is 
that ever going to happen? I don't mean sequestration. I mean 
some other physical, biological invention that I am not smart 
enough to know about. Is that ever going to happen?
    Dr. Majumdar. Well, Senator Alexander, I think one of the 
last reports we wrote as part of Secretary Moniz's Advisory 
Board was on exactly this issue--how do you do global carbon 
management and carbon capture is absolutely the right in it.
    Today if you'd look at a coal-fired power plant and tried 
to capture the carbon, it costs about $60 a ton. That needs to 
come down to about $30, $20-$30 a ton because there is a market 
on carbon for enhanced oil recovery et cetera, which is about 
roughly $30. So, if the cost is lower than the price in this 
business and so, that needs research, that needs new 
technologies to be created.
    And so, I think this is absolutely the right thing to do 
and, in fact, in talking with India since I go there once a 
year, and every time I go there to New Delhi, to meet and talk 
to the government and the businesses. They're looking for 
technology. They realize that they have to shift. They're 
looking at their air pollution, and they realize that they 
cannot survive this way.
    And so, they're looking for technology and I think if you 
look at China and India broadly at an international level, they 
look at this 21st century shift and they want to be part of the 
supply chain which is going to be a new supply chain. And I 
think we need to think strategically to see how we can capture 
a large value of the supply chain in the United States and part 
of that is technology innovation.
    Senator Alexander. Thank you, Madam Chairman.
    The Chairman. Thank you, Senator Alexander.
    Senator Stabenow.
    Senator Stabenow. Well, thank you, Madam Chair and Ranking 
Member, for holding another very important and thoughtful 
hearing. I really appreciate this, and I appreciate the fact 
that we are focusing on the opportunities of addressing climate 
change as well as the serious impacts on carbon pollution. I 
appreciate we are actually talking about climate change as a 
real thing and that we need to actually do something about it 
which is a wonderful conversation at least to have.
    Given the volatility of the weather, which is getting worse 
all the time because of carbon pollution, and what we are 
seeing in the atmosphere in the warming of the atmosphere and 
holding more snow, holding more rain, I mean all of this is 
happening. Coming from a state with a large agricultural 
presence I know it is dramatically changing what is happening 
for us and not in a good way.
    I also just want to raise for us, to me, even though this 
obviously is a global issue, it starts with American leadership 
which means we should be in the Paris Climate Accord and as a 
voluntary leader. But it also means that we are impacted right 
now.
    We have a disaster assistance bill on the Floor, another 
one, billions of dollars. Taxpayers in America are paying. It 
is a question of are we going to pay for innovation and jobs or 
are we going to pay for picking up the pieces because of all of 
the volatility in the weather and what has been happening.
    So it is not a surprise that I, coming from Michigan, am 
focused on ways in the transportation sector to be able to 
address this, as well as other areas. And we know from the 
United States' perspective this is the largest source of 
emissions.
    And so, yesterday I was very pleased with Senator 
Alexander's and our peers and Senator Collins to introduce the 
Driving America Forward Act to extend the tax credit for the 
purchase of electric and fuel cell vehicles. We need to do that 
until there is a broad enough adoption that we can actually see 
the price come down, which it eventually will, but we do know 
that this creates jobs. It is creating jobs in my home State of 
Michigan and is a very important part of the all-of-the-above 
structure.
    Let me just say that electric vehicles can reduce carbon 
pollution by up to 70 percent and as the power sector becomes 
more increasingly green, life cycle emissions will drop 
further. This is a good thing.
    Also, hydrogen fuel cells, I don't think we have focused 
enough in that area. I know that we have global competitors in 
China and Japan that are investing heavily and have even 
shorter refueling times and longer driving ranges for electric 
vehicles.
    I do want to say on the hydrogen fuel cell, and because 
this is part of our legislation, when I talk hydrogen fuel 
cells people often think of the Hindenburg and we are not 
talking about dangerous fuel here. In fact, in many ways, it is 
safer than gasoline. The army now, in Michigan, tactical, our 
U.S. Army research arm is working with the Department of Energy 
on developing fuel cell tactical vehicles, and that is very 
exciting to see what they are doing.
    So when we look at this, but my concern--let me just ask 
Mr. Sandalow, when we look at how we bring down the cost in 
terms of deployment and so on, we know that the battery 
accounts for about 30 percent or more of the cost right now in 
an electric vehicle. And in fact, McKinsey is reporting today 
that about the importance of lowering battery cost. I am 
wondering for yourself and Mr. Majumdar, how can Congress, the 
Federal Government, speed up the commercialization of this? I 
mean, we are hearing that it could be 20 years before we see 
the research necessary on battery technology. That is just not 
fast enough.
    Mr. Sandalow. Senator, thank you for the question.
    I think the bill you submitted yesterday is a great start 
on this. I think one of the lessons from our experience with 
the reduction of costs of solar power is that scale makes a big 
difference. Once these technologies are deployed in large 
volume, the costs come down.
    Senator Stabenow. Right.
    Mr. Sandalow. And the same thing is going to be true with 
electric vehicle batteries. I've seen projections that are more 
optimistic than the one you just related.
    Senator Stabenow. Good.
    Mr. Sandalow. Projections that say that the purchase price 
of electric vehicles is going to be competitive with the 
purchase price of comparable conventional vehicles in the 
middle part of the next decade.
    Already electric vehicles are probably cost competitive on 
a total cost of ownership basis over the life of a vehicle 
because it's cheaper to drive on electricity than on fuel. But 
people don't buy cars that way. They look at the sticker price. 
And so, once we get that purchase price comparable, it's going 
to make a big difference. And so, I think deployment policies 
are what's absolutely central here.
    Senator Stabenow. Well, let me just add that infrastructure 
is also absolutely critical because right now people want to 
know how are they going to be able to charge their vehicle. If 
they can do that at work and they can feel comfortable at home, 
I think we will see much more rapid deployment.
    I know I am out of time but Mr. Majumdar, I am not sure, I 
am so sorry if I am pronouncing that incorrectly. If you just 
had a sentence or two you wanted to add to that in terms of 
what we should be doing?
    Dr. Majumdar. I think with any new technology, as we do 
more, the cost comes down. That's the learning curve. And 
sometimes initially it is a little too high, maybe just maybe a 
little higher and cannot compete. So, they need a first market.
    I come from Silicon Valley and people think Silicon Valley 
was created by venture capitalists. It's wrong. It was created 
by the Dean of Engineering of Stanford, Fred Thurman, who used 
to work in the Department of Defense during the World War. When 
he went back to Stanford, he asked the Department of Defense to 
create the market for the Hewletts and the Packards, et cetera.
    So the government has a role to play to create the first 
market. We are the biggest, the government is the biggest user 
for energy in the United States. And I think if you could use 
that power, the market demand power to bring down, to increase 
the scale and bring down the cost in the United States, you 
will then see the supply chain of manufacturing, et cetera, to 
be established out here. And I think that's one that should be 
on the table as we speak about this.
    Senator Stabenow. Thank you.
    Thank you, Madam Chair.
    The Chairman. Thank you, Senator.
    Senator Cassidy.
    Senator Cassidy. You know I am a physician so I look at 
things empirically. I have to admit that some of what has been 
said does not seem, and I mean this by no offense, some of what 
has been said does not seem to empirically hold up.
    I mention that because this is such an important issue and 
it can't be, kind of, don't we wish this would be reality. It 
has to be the reality.
    I will point out that if you look at that portion of our 
usage which is the industrial base of the grid, that is mobile. 
If you increase the cost of their input, they move and they 
move their jobs overseas. Indeed, since 1994 when the EU cap 
and trade and the U.S. regulatory system began on carbon, 
industry moved to China. And the increase in emissions by China 
exceeds the decreases in the EU and the U.S. put together.
    Carbon leakage. And you can see what happened in Great 
Britain. They have achieved their success principally by the 
employment of natural gas versus coal and by carbon leakage. 
Now carbon leakage means you are moving to China which has coal 
at 63 percent of its fuel base despite voluntary, voluntary, 
voluntary regional cap and trade systems to China which 
continues to build, I think they are building coal-fired 
plants, not only in their own country but in 17 other countries 
simultaneously. They show no true commitment to this.
    And a carbon tax? We would have to have a border adjustment 
carbon tax aside from WTO problems, empirically this is going 
to be complicated because of international supply chains.
    Let me just say that is a preamble because this is too 
important to, kind of, hope. It has to be something embedded in 
empiricism, and empirically, frankly, Mr. Bryce, you seem to 
have it most.
    No offense, sir, but if we look back and said 15 years ago, 
we are going to have a national, not market driven, but a 
national kind of priority, natural gas was $13 per MCF 15 years 
ago. Natural gas would not have been part of your fuel base 
because at that time industry was moving their fertilizer 
plants to Chile because they could not afford $13 per MCF. Now 
it is $2.50 and that same natural gas plant is moving back. So 
I think empirically, I think market forces are going to be that 
which is most.
    And the renewables, it depends on how you define renewable. 
I understand renewable can be nuclear because it is always 
there. It can be natural gas because, gosh, it always comes out 
of the ground. It could be wind and solar. But I think I know 
the physics limit the solar and wind from achieving anything 
beyond a marginal improvement in generation.
    Mr. Bryce, any kind of comment on that?
    Mr. Bryce. Well, just a couple ones which is that when 
you're talking about, I have solar panels on the roof of my 
house. I have eight kilowatts of solar on the roof of my house. 
Solar is growing and growing rapidly. I'm bullish on solar. But 
it still has major land requirements.
    Wind energy, they're reaching the limit. It's known as the 
Betz limit in physics which limits the amount of energy they 
can harness from the wind. So the only way to dramatically 
increase energy production from wind energy is by increasing 
the footprint of the wind turbines.
    And as I testified, this backlash against the wind energy's 
encroachment is happening coast to coast and it's happening in 
my home State of Oklahoma. I talked to the Mayor of Hinton, 
Oklahoma, three days ago. They got sued by Next Air Energy 
because they passed an ordinance that prohibited the 
construction of wind turbines within two miles of their town's 
borders.
    Senator Cassidy. So, let----
    Mr. Bryce. They beat Next Air but I agree with you, sir, in 
terms of the growth of natural gas it's really a truly American 
success story.
    Just to give you a couple of quick metrics. Just the growth 
in gas production in the U.S. from 2005 to today is roughly 44 
billion cubic feet per day. That's two times Iran's gas output. 
It's four times Saudi Arabia's output.
    Senator Cassidy. So the degree to which the U.S. exports 
natural gas and coal use, India and China use our natural gas 
versus their coal, is the degree to which we will achieve 
significant decreases in global greenhouse gas emissions.
    By the way, let me also point out that if you look at the 
academic journals, all of China's coal-fired plants on the 
Pacific Coast emit SO<INF>X</INF> and NO<INF>X</INF> that blows 
over the Pacific and lands on our Pacific Coast. The idea that 
we are going to somehow increase the price of energy on the 
grid and industry will not move to China and we won't have 
SO<INF>X</INF> and NO<INF>X</INF> blowing over on our country, 
I think, empirically is wrong. So I do think natural gas is the 
way to go.
    Let me also say, I have never done this before, Madam 
Chair. I would like to submit a YouTube video for the record.
    [Laughter.]
    The Chairman. Are we capable of receiving that?
    Senator Cassidy. I don't know that.
    [Laughter.]
    [YouTube video transcript from Michael Shellenberger 
follows.]
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    Senator Cassidy. It is by Michael Shellenberger who was 
formerly involved with the Obama Administration, who now goes 
on and says, listen if we are going to achieve a carbon-free 
future it cannot be solar and wind because the footprint 
required is requiring destruction of Joshua Tree, pulling 
turtles out of the ground, all of whom die, and cutting the 
forest and that that footprint cannot be expanded much further. 
Therefore, he, if you will, working with the Obama 
Administration, has said that we cannot go in that direction if 
we wish to achieve our goals. That said, thank you all for your 
testimony and I appreciate it.
    The Chairman. Thank you, Senator. We will figure out how we 
put that video into the record. But thank you for that.
    Let's go to Senator Hirono.
    Senator Hirono. Thank you, Madam Chair.
    Mr. Majumdar, sorry, we seem to be doing damage to your 
name, I apologize.
    I was particularly taken by the portion of your testimony 
that really points to a sense of urgency that we should have 
and particularly when you note that climate change is resulting 
in extreme weather conditions such as extreme heat and cold, 
droughts, excessive rainfall and we certainly saw that on the 
island of Kauai where more rainfall fell on that island in a 24 
hour period than in the entire history of our country. That is 
saying a lot. The President had to declare a national disaster 
declaration. So, flooding, all of that.
    And that a rise of the temperature, average temperature to 
two degrees Centigrade, and we are at 1.2 degrees Centigrade 
right now, would be devastating to the world and, by your 
calculation, it would just take us another 20 years to get to 
the point of a two-degree Centigrade temperature. And then 
thereafter, the emissions must be zero. So I think that the 
sense of urgency is there.
    You noted in your testimony also that research alone is not 
sufficient to bring innovative technologies from the laboratory 
to a commercial scale where they can benefit people. Do you 
think the Department of Energy should support demonstrations, 
demonstrations of new technologies to improve the performance 
of the electric power grid to handle large amounts of renewable 
power, energy storage, electric vehicles and other needs?
    Dr. Majumdar. Senator, that's a great question.
    I think that, so Department of Energy, in terms of ARPA-E, 
the applied energy program, energy and sciences, they're 
supporting research.
    When it comes to demonstration, I think we should look at 
the needs of our states. We should look at the energy 
requirements and the diversity of what's required, because 
there's no one solution to climate change, as we all know. We 
have a diversity of solutions and there's a diversity of needs.
    I think we should use the states' needs and create federal-
state partnerships with the private sector to create the 
environment for demonstration projects so that they actually 
prove out and de-risk the technologies so that then the markets 
can look at that and say that that's what we want, not just 
U.S. markets but international ones. So I think we should use a 
leverage of states to demonstrate, to create demonstration 
projects.
    Senator Hirono. I think that is a very good point and, in 
fact, there are a number of bills that would support public-
private partnerships to demonstrate, for example, innovative 
grid technologies so the grid can accommodate more renewables. 
We are always told by the utilities that their grids cannot 
accommodate more renewables, so that is really an area that I 
think we should focus on and I have a bill to do just that, 
strangely enough. But I do thank the Chair for including such 
demonstration grants in her Energy and Natural Resources Act 
last Congress.
    Mr. Silverman, you spoke about using a carbon tax and Ms. 
Ladislaw, you spoke about a national clean energy standard to 
provide a way to recognize that we shouldn't allow fossil fuel 
plants to continue emitting carbon pollution for free. What are 
your views on applying a cap and trade system to set a limit on 
carbon pollution?
    Mr. Silverman. So we are very much in favor of an economy-
wide carbon price, because it's very difficult to have 
competition across sectors if you don't have some common 
language. So, we do think that makes a lot of sense.
    In terms of in the electricity sector, you know, we really 
do think the low-hanging fruit is choice. Let people buy it if 
they want. Senator Heinrich left, but businesses are actually 
some of our biggest customers demanding green power.
    Senator King. Heinrich is right here.
    Mr. Silverman. I'm sorry, Mr.----
    Senator Hirono. Cassidy.
    Mr. Silverman. Apologies. Thank you.
    So, anyway, businesses are some of our best customers who 
want green power and, you know, not everywhere in the country 
can they buy it and that's very frustrating.
    Now in terms of cap and trade we could, you know, this 
panel could go on forever talking about the various benefits of 
putting a price on carbon, absolutely. We tend to think that 
you actually have to make a policy choice between the lowest 
carbon grid tomorrow in which case a price on carbon is very, 
very effective or are you really interested in driving 
investment directly to zero carbon resources? Those are two 
different policy outcomes.
    If you want the lowest carbon grid tomorrow, absolutely put 
a price on carbon. But if your goal is to drive investment in 
clean tech, actually it's a more direct subsidy or more direct 
means of getting it if you establish a market that values the 
clean energy attribute and then says, okay, we're open for 
business. Any technology that wants to come in can compete, 
because, of course, the climate doesn't care where we're 
getting our clean megawatts from. And so, we really do like 
having that direct price signal where the money goes directly 
to support clean energy investment as opposed to a carbon tax 
but we're very much in favor of sort of using both tools in 
conjunction where the use case makes sense.
    Senator Hirono. Madam Chair, could I ask Ms. Ladislaw to 
also give us her comments?
    Ms. Ladislaw. Sure. I think a carbon tax, cap and trade 
system clean energy standard, there's public policy ways of 
designing each of these programs to meet a variety of different 
needs. So I have no problem with the cap and trade program.
    I think there's a little, there's more in just today in, 
sort of, a tax and dividend scheme because it speaks to paying 
people back, right? And there's a concern that the tax, the 
increased cost for energy might harm people. And so, it really 
just is about priorities. And we've seen different states have 
cap and trade programs and they work well.
    I think that the issue is we really need to kind of pick 
one and do it in earnest because a lot of time has been wasted 
sort of debating about the mechanisms and we, kind of, just 
need to do something.
    Senator Hirono. Thank you.
    The Chairman. Senator Heinrich.
    Senator Heinrich. I am going to stay on the same thing and 
just first start, I am curious how many of you agree that 
putting a price on carbon pollution either indirectly or 
directly is a good thing? Anybody no? Okay. That is not bad. 
That is not 100 percent, but 80 percent is pretty good.
    When it comes to if we put a price on carbon and in 
particular, Mr. Silverman and then also Ms. Ladislaw, that next 
step of how to use that price because one step is introducing 
the price on carbon. The next step is, is it a tax? If it is a 
tax then you use that to fund government. If it is a dividend 
or a fee, it goes someplace else next, either back to a 
consumer, for example, where you target it to the most exposed 
energy consumers to make sure that they don't bear the price of 
us cleaning up our grid or it goes someplace like into research 
or into the transitioning the workforce.
    So do you have strong opinions on what that next step 
should look like?
    Mr. Silverman. Yeah, well, I have a 15-page version 
attached to my testimony. I'd be happy to talk about it more.
    Where you sort of start getting really wonky, it's about 
setting up a market structure that delivers what we need at the 
least possible cost. Our wholesale markets, overseen by FERC, 
are just viciously competitive.
    Senator Heinrich. Absolutely. I hear where you are going 
with that, but so what we are doing up here is we are trying to 
marry what the economists all agree on with what the world of 
the political possible is and also trying to avoid, you know, 
what Macron just went through in France where the wrong people 
bore the cost of that transition.
    Mr. Silverman. Yeah.
    No, and my only point about the competitive markets is the 
FERC angle has been completely ignored.
    Senator Heinrich. Absolutely, yes.
    Mr. Silverman. We have basically sidelined the people who 
are the best market designers in the world.
    Senator Heinrich. And that brings me to transmission which 
I disagree with this footprint issue. I mean, we have a lot of 
footprint to offer in New Mexico, and we are happy to sell 
clean power all day long to hungry markets.
    We have one wind project that is about to break ground that 
is over half a megawatt or half a gigawatt, excuse me, not to 
mention all of the other projects in the pipeline right now.
    But maybe one of the biggest challenges here is that there 
are very long lead times for actually creating the transmission 
to be able to marry those projects with where the demand is. Do 
you have strong opinions on what we ought to be doing on 
transmission right now?
    Mr. Silverman. You know, I will just say, a little bit like 
a broken record, but competitive markets because if there is 
the cheapest way to----
    Senator Heinrich. The market failure there is where we hear 
about these issues where one state in between the market that 
wants to sell and the market that wants to buy says no. So 
there has to be some sort of backstop approach to this that 
addresses when the market failure exists.
    Mr. Silverman. I think that would be great but, and here's 
the but. Let's take the grid as it is and say if we put an 
appropriate market in place and let private capital and 
companies fight those battles because if we say that carbon is 
particularly valuable in this place or that there is a, you 
know, a set pot of dollars that we can go out and finance 
against, the private capital will find a way. I mean, it's 
never pretty, but that's okay. And if the technology is less 
expensive, if wind is less expensive in one place and 
transmission in another, we need to have a price that lets the 
market----
    Senator Heinrich. If one state or one municipality, someone 
along the way, is not sharing in that, is not a participant in 
that market, they can just say no. Right now, we have a failure 
as a result of that.
    I am curious, maybe switching gears a little bit to Mr. 
Majumdar, long-term storage, getting beyond the four-hour 
lithium-ion place that we are now. What are you most excited 
about? Is it compressed cryogenic air? What are you seeing in 
that space that is going to be the next extended, long-term, 
even seasonal solution to storage?
    Dr. Majumdar. Well, I mean, the question is a great 
question. What should be the cost of storage if you want to do 
multi-day storage which if you are at 80 percent renewables or 
70 percent, you will need that.
    Senator Heinrich. Have to, yes.
    Dr. Majumdar. And that is on the order of about $10 to $20 
a kilowatt-hour because we're not going to use it enough in 
cycles of it to pay it off. And that's about a factor of ten 
lower than lithium-ion batteries. So lithium-ion battery is not 
going to cut it.
    Senator Heinrich. Yes.
    Dr. Majumdar. And the cheapest way to store electricity at 
that cost level is pump hydro. And then we have compressed air. 
Those are scalable things.
    Senator Heinrich. Right.
    Dr. Majumdar. If you're looking at batteries, 
electrochemical batteries that are coming onboard, there are 
lots of very exciting things that are happening. Iron sulfur 
batteries, these are low cost of materials, cost of bill of 
material batteries. They are still in R&D. Some of them are in 
the pilot stage.
    Senator Heinrich. Right.
    Dr. Majumdar. Many of them funded by ARPA-E when I was 
there. And so, I think that's the pipeline that you've seen 
coming onboard. It's actually very positive, but we should not 
ignore pump hydro and compressed air.
    Senator Heinrich. Great. Thanks.
    The Chairman. Thank you, Senator Heinrich.
    Senator King.
    Senator King. Thank you, Madam Chair. I am loving this 
hearing. I really appreciate your putting it together.
    A little bit of background. I spent most of my adult life 
in energy. I have worked, I have made my living in hydro, 
biomass, energy efficiency and wind, so this is very familiar 
to me.
    The first thing I want to say is I want to match, I want to 
see Senator Cassidy's video and raise him by a map.
    [Laughter.]
    Senator King. And the map is called----
    The Chairman. We can handle maps.
    Senator King. The map is called ``Nobody Lives Here.''
    [Nobody Lives Here Map follows.]
    [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]
    
    Senator King. Forty-seven percent of the census tracks in 
the United States have zero population. I urge him, if he 
thinks we are out of room for solar and wind projects, to look 
down when he is flying home to Louisiana tonight. To say that 
there is no place for these projects to go just, you know, as 
much as I love the Senator from Louisiana, that just does not 
pass the straight face test.
    Secondly, my experience in energy is there is no free 
lunch. Every form of energy has some drawback, some questions, 
some cost, whether it is environmental or economic, and I 
understand that.
    It seems to me though that Senator Heinrich's last 
question, there are several really important goals here.
    One is storage. Storage unlocks enormous potential for 
renewables. And by the way, the other place Senator Cassidy 
ought to look is in the Gulf of Mexico, the offshore wind has 
enormous potential, higher capacity factor, higher efficiency, 
larger turbines, less environmental impact, less neighbors 
impact. So, enormous potential. But storage unlocks huge 
potential for solar and wind.
    Number two is efficiency. The cheapest, cleanest kilowatt-
hour of all is the one that is not used. My experience in the 
energy efficiency business is the problem is energy efficiency 
investments have insufficient return in and of themselves at a 
fairly low energy cost. There has to be some subsidy. My 
suggestion is that utilities could pay customers to do energy 
efficiency which would lower their cost of acquiring new power. 
In other words, new energy efficiency is a ``negawatt,'' if you 
will.
    Carbon capture, I think, is also critical. We have this 
huge coal resource. We have huge energy resources. Carbon 
capture has got to be part of the future, it seems to me.
    Number four is nuclear. I agree with you, Mr. Bryce. I 
think the problem I have is not, and you said something that, 
sort of, piqued me. Right now, it is not affordable. I mean, it 
just isn't. The cost per megawatt of installing a new nuclear 
plant is just not comparable even to any other technology and 
sitting next to this lady, we have to figure out what to do 
with the waste. It is not responsible for our generation to say 
we are going to solve our climate problem by building nuclear 
plants, and we are going to let you guys and our children and 
grandchildren deal with the waste. This government made a 
commitment to dealing with waste 70 years ago. They have not 
done it, and that is one of my problems with going whole hog 
into nuclear. But I do think, clearly, the new generation, if 
it comes, smaller, scalable, those kinds of solutions are 
important.
    Number five, for me, is research and innovation. Got it, 
that we have all agreed on that. The shale revolution, in part, 
came out of research at the Department of Energy and if we can 
have similar research that brings us innovations like that in 
batteries, we are in business. I mean, that is a big deal and I 
think we need to appreciate that.
    Finally, the point you all have made, and if you could find 
a question in here, by the way, you are welcome to it.
    [Laughter.]
    Number six is it does have to be an international solution. 
CO<INF>2</INF> does not respect boundaries. And if we do 
everything we possibly can, which I think we should, but India 
and China do not, then we are still not going to solve this 
problem. By the way, to put a fine point on the problem, we are 
now at 410 parts per million of CO<INF>2</INF>. First time in 
three million years we have been there. And the last time we 
were there, the oceans were 60 feet higher. I mean, to me that 
sort of captures where we are. So, I think, we have to be 
talking about all of these things.
    I am a little bit worried about a carbon tax because my 
fear is that a carbon tax would be just high enough to be 
annoying and not high enough to change behavior. All the data I 
have seen is people, and we have lived through it, people are 
not going to stop driving until gas goes up a dollar or two a 
gallon. And nobody is talking about a carbon tax that would 
have that level of increase. Yet we would be taking, it is a 
regressive tax in a sense that we would be taking out of 
consumers.
    You found a question. Answer.
    [Laughter.]
    The Chairman. Senator King, we were waiting for that 
question.
    [Laughter.]
    Senator King. Well, I figured if I threw enough out there--
--
    The Chairman. We were going to give you a little extra 
time. You found it there.
    Senator King. Yeah, okay, alright. Go for it.
    Ms. Ladislaw. I was just going to offer two really quick 
things.
    Yes, you're right, it's a well put concern about a carbon 
tax. It can't do everything and it can do some things and you 
can design it to not be regressive.
    The most regressive thing about climate change is the 
impacts. That is absolutely the case. Everything else you can, 
sort of, design to be a little bit better.
    And I think your point on global leadership is really 
important. I think if we use empirical evidence about why we're 
doing something and other people aren't to block action, it 
doesn't make answering the problem any easier.
    Senator King. No, and that is why leaving the Paris Climate 
Accord was a disaster because that, at least, was global 
leadership. It was non-binding, but at least put us out there 
with the rest of the world. Now we are saying to them, we are 
not worried about it. You do not have to worry about it.
    Anyway, thank you, Madam Chair.
    The Chairman. Thank you.
    Senator King. I don't usually make speeches here, you have 
to admit, but----
    The Chairman. But this is just one of those hearings where 
there is a level of thought that is provoked and any time you 
have good thought being provoked, this is, again, this is a 
Committee that is taking on these issues because they demand 
some considered thought and, perhaps, provocative discussions.
    Senator King. Thank you for your tolerance.
    The Chairman. Thank you.
    Senator Barrasso, you are up next but if you would like a 
breather, we can turn to Senator Cortez Masto? It is your call.
    Senator Barrasso. Well, thank you very much, Madam 
Chairman.
    The Chairman. He is ready.
    Senator Barrasso. I am ready to go, and I am very thankful 
to you and to Ranking Member Manchin for holding this hearing 
today because technological advancements have always improved 
our quality of life in this country and advancements in energy 
are certainly no exception.
    When I first arrived in the Senate over a decade ago, you 
and I worked along with Jeff Bingaman, who was a Democrat and 
Chairman of this Committee, in a bipartisan way. We introduced 
something called the GEAR Act. Is it? Over a decade ago, a bill 
to----
    The Chairman. What did it stand for?
    Senator Barrasso. I will tell you that in a second.
    [Laughter.]
    Because it was very good.
    But it was designed to remove greenhouse--we have high paid 
staff that come up with these names and then it stands for 
something.
    The Chairman. Yes.
    Senator Barrasso. But the idea was to remove greenhouse gas 
emissions from the atmosphere. We had a hearing in EPW last 
week about the advances in technology over the last decade to 
be able to do that. So it has been a big deal.
    And just yesterday the Senate Committee on Environment and 
Public Works unanimously passed something called the USE IT Act 
which stands for something different. Again, it is bipartisan, 
it is bicameral--it promotes carbon capture, utilization, and 
storage.
    Certainly there is a lot of momentum behind carbon capture 
and I really look forward to working with both of you and all 
the colleagues to quickly pass this kind of legislation to 
promote the development of carbon capture technologies. As we 
continue to pursue carbon capture and other innovations to 
address greenhouse gas emissions, I think it is important that 
all discoveries, all findings and failures are shared 
throughout the research community so people can know what 
worked, what did not work and where we ought to be then 
focusing the next level of research.
    So in the past, federal research has not always been 
available to private researchers. I had a visit with Bill 
Gates, and he was trying to say how do you get more 
information? How do we get shared information? And I think 
sometimes this lack of communication among researchers presents 
a risk of duplicating ongoing efforts. You are shaking your 
heads up and down so I will start, maybe run the panel. How do 
we ensure transparency among researchers to ensure that we do 
not waste time and money, both are critical resources, with how 
we spent this on complementing each other on improving the 
research instead of duplicating it?
    We will run down the panel.
    Dr. Majumdar. Sure. As I said before, having been the first 
Director of ARPA-E and then also the Acting Under Secretary 
with all the applied energy programs, I think there's 
tremendous value in looking at increasing the budget. We had an 
ARPA-E hearing where I said that the ARPA-E budget ought to be 
on the order of $1 billion.
    But also look at the effectiveness, not just of ARPA-E but 
the applied energy program, Basic Energy Sciences. I think 
that's the fundamental base, the foundation of everything. We 
have to look at how our entrepreneurial spirit is ignited with 
this.
    I think creating market demand, we talked about this 
earlier as well, of how, you know, I'm from Silicon Valley and 
people think that Silicon Valley was created by the venture 
capitalists. That's wrong.
    It was created because the Department of Defense wanted to 
buy things of new technologies. And I think we should be 
looking at the biggest energy user in the country which is the 
U.S. Government, to see how to look at energy efficiency in 
buildings, new kinds of fuels, new electrification of batteries 
so that these technologies come down on the cost curve and 
become competitive, not just in the United States, but around 
the world.
    So I think there's a whole--we have to look at it 
holistically, not just innovation out here, policy over there, 
just combining.
    Senator Barrasso. And to that point, in a second, Mr. 
Silverman.
    If you cannot do it worldwide the impact is nothing because 
emissions in the United States are actually going down where 
they are going up in China and in India and around the world. 
But if you shut off the United States completely, it would not 
make the kind of----
    Dr. Majumdar. It's a $10 trillion per year export market 
that we're talking about, because the rest of the world is 
looking for technology.
    Senator Barrasso. Sure.
    Mr. Silverman?
    Mr. Silverman. I love the order we're going in because 
we're the customers who take the technology that ARPA-E and 
others develop and then we, sort of, take it to the next stage 
whether it's through something like the carbon capture system 
down at Parish or the Ivanpah facility which is the largest 
concentrated solar facility in the world, but we also take a 
lot of other technologies.
    And you know, I love going to pitch meetings with people 
who come out of ARPA-E because they always have such 
fascinating ideas. And you know, the thing that we often lack, 
the thing that prevents us from taking those and really running 
with them and making them commercial isn't the technology. It's 
the lack of a comprehensive, long-term price signal because 
it's really hard to take capital and deploy it if you don't 
know what the market is going to look like if you don't have a 
financeable price signal that you're being sent.
    And so, a lot of this, you know, I almost don't care what 
the technology of the future is, because a competitive market 
that sends the right price signal and says, hey, we want more 
of this attribute and we're willing to pay for it. That will 
get at the right technology. And so, when we think about it, 
that's what we're looking for and that's what we really lack in 
today's markets.
    Senator Barrasso. Ms. Ladislaw?
    Ms. Ladislaw. I thought Secretary Moniz and Secretary 
Dabbar both had great ideas about how to increase transparency 
and cooperation within the research structure.
    Just as a simple observation, I think anything that's like 
an XPRIZE or a grand challenge or something that, sort of, 
organizes researchers against a challenge, kind of just 
naturally brings out what are people doing relative to one 
another and draws in the private sector. So I think more things 
like that are really proven to be quite effective.
    Senator Barrasso. That is exactly what the GEAR Act was 
about, a gear, an XPRIZE to make carbon productivity.
    And--yes?
    Mr. Sandalow. Three points, Senator.
    First, engage globally. You're 100 percent right. There's 
no solution to this problem unless we do that. That means not 
just being part of the Paris process, but engaging robustly in 
the Paris process. It means participating in other processes, 
like the Clean Energy Ministerial, that help to disseminate 
these technologies around the world.
    Second, plan. Planning is a real gap in this country. Other 
countries do a much better job than we do. And having served as 
Acting Under Secretary at the Department of Energy, I think the 
applied programs working with Congress can do a much better job 
of long-term planning with assistance from Congress.
    And then third, deploy. There is no long-term, real cost 
reduction for many of these technologies unless they're being 
deployed in the private sector. We need the policy framework 
that gets them out into the marketplace.
    Senator Barrasso. Mr. Bryce?
    Mr. Bryce. Yes, sir, Senator. I'll give you a slightly 
different answer.
    I think these energy technologies are diffusing around the 
world with remarkable speed without much government assistance.
    Just finished shooting a documentary called, ``Juice: How 
electricity explains the world.'' I was in Lebanon about 18 
months ago. I was in the Chouf Mountains, southeast of Beirut, 
and I saw 100 kilowatts of Chinese solar panels that were 
capturing Lebanese sunlight that was being stored in lead acid 
batteries that were designed in Bulgaria and manufactured in 
India. So there's a robust international marketplace for all 
kinds of energy technologies, and in my view, these are 
diffusing very rapidly because there's a market for them.
    Senator Barrasso. Thank you.
    Mr. Sandalow. If I could, Senator?
    That cheap solar panel is cheap because the German 
government over the course of ten years deeply subsidized the 
purchase and the Chinese government deeply subsidized solar 
manufacturing and because this government, over the course of 
many years, was a leader in research and a variety of other 
government factors. So to say that solar panels are deploying 
around the world because governments are staying away is not 
really the full story.
    Senator Barrasso. Madam Chairman----
    Mr. Bryce. I'll just say that's not my point.
    Senator Barrasso. Regrettably, my time is expired.
    But Madam Chairman, just to tickle both of our memories, 
the GEAR Act stood for Greenhouse Gas Emissions Atmospheric 
Removal Act, and I submit that as part of the record.
    [Laughter.]
    [Details of the GEAR Act follow.]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairman. That is worthy of submission. We will have to 
re-up that one.
    [Laughter.]
    Thank you, Senator, and I appreciate the exchange here.
    Senator Cortez Masto.
    Senator Cortez Masto. Thank you.
    First of all, let me thank the Chairwoman and the Ranking 
Member for this great discussion, so appreciated. And thank you 
all for being here.
    I am from Nevada and let me just say I appreciate the 
conversation--not just about the solar and the wind but we have 
geothermal, we have hydropower. That is an important part of 
our energy portfolio.
    Let me ask you this because I do not disagree with what I 
hear today. I think we are all, kind of, talking about the same 
thing which is you can have a diverse energy portfolio but our 
stated outcome with that is to reduce our carbon footprint. 
Would you all agree with that? Yes? Yes, everyone is nodding 
their head yes.
    Dr. Majumdar. And affordability.
    Senator Cortez Masto. And affordability, correct, right. 
But that is the ultimate goal here.
    Let me ask you this--and because we have pulled out of the 
Paris Climate Exchange, because we are not engaging globally 
now--do you think this country, the United States, should not 
or stop reducing its carbon footprint? Does anybody believe 
that? I don't think anybody agrees with that.
    Mr. Sandalow. It's absolutely imperative that we continue 
to reduce our carbon footprint and that the whole globe do 
that.
    I mean, we've talked a little bit in this area, not a lot, 
about the urgency of climate change. I mean, we are already 
experiencing the dangers of climate change. It's unbelievable 
the amount of flooding, severe storms, fires that we've 
experienced in this country and around the world. Unless we 
jump on this problem now, those risks are going to be even 
worse in the decades to come.
    Senator Cortez Masto. Right, and I agree. I think we can 
lead, and this country should be leading in this direction.
    The other thing is, I think at a federal level, we should 
be investing at a federal level in this new technology. ARPA-E 
is incredible where I think there is that partnership between 
the Federal Government and the private sector.
    I guess my question for you, and I am going to butcher your 
name, Doctor, Dr. Majumdar?
    Dr. Majumdar. That is perfect.
    Senator Cortez Masto. Thank you, sorry.
    In your testimony you mentioned a handful of potential 
innovative solutions to address climate change such as grid-
scale storage, modular nuclear reactors, we have talked about 
that, decarbonizing, industrial heat processes and others. Can 
you discuss the intersection of what is needed from a policy 
perspective to ramp up such technologies and how can we better 
facilitate the development in them and deployment?
    Dr. Majumdar. Senator, that's a great question, and I think 
we have to look at it holistically.
    It is absolutely critical to invest in the research, this 
foundational science and energy research, that the Department 
of Energy invests in and support them. It's also very important 
to get the right people in the Department of Energy to be the 
best stewards of this and that depends, of course, on the 
Executive Branch.
    I think it is also important to create, as was discussed, 
the markets for these new technologies, otherwise it's very 
difficult for these new technologies to be able to get in there 
because they need a little bit of health initially.
    And whether it's a price, whether it's standards, I think 
we can discuss that, but I think we need some kind of pull on 
the other side of the value chain. In between, we need 
infrastructure. And I think, I can't overemphasize how 
important that is.
    There was a question from Senator Heinrich about 
transmission lines. We are not very good at building 
transmission lines. That requires the Federal Government and 
the state governments and the local jurisdictions to partner 
together to expedite and streamline this process. Otherwise, we 
can put all the wind farms up but if you can't get the 
electricity to the places where the people live--it's all about 
the people at the end of the day----
    Senator Cortez Masto. Right.
    Dr. Majumdar. ----then we are not doing a good job. It's 
not optimal.
    So I would say paying attention to the infrastructure, 
paying attention to the capital requirements to build 
infrastructure, to bring in private capital, to use the federal 
dollars to be able to leverage and maybe create a little bit of 
a competitive spirit amongst the states who can deliver. And 
that's the kind of way to draw that in, to bring in these new 
technologies, test them out, put them, deploy them and then if 
you can lead that in the world, that creates the international 
market where everyone is looking for technologies in the 
future.
    Senator Cortez Masto. Thank you.
    Thank you. Thank you to the panel. I appreciate the 
conversation this morning.
    The Chairman. Thank you.
    This has been good discussions and good debate going on. 
There has been a little bit of discussion on the efficiency 
side. I think you pointed out in your monologue there or 
soliloquy or whatever it was.
    Senator Manchin. It was in there somewhere.
    The Chairman. It was in there somewhere.
    But the focus that what we do not spend is, in fact, 
probably our wisest energy source here.
    This is not a budget hearing, but we have been in the midst 
of budget hearings. I am on the Approps Committee, so we have 
been looking critically at those parts of the budget, whether 
it is in DOE or other parts, where I think we can be making a 
difference when it comes to our missions.
    When I see programs such as the Weatherization Assistance 
Program being zeroed out, it just causes me to, I guess there 
is a level of frustration there because it is seemingly the 
easy things. Maybe it is because we think we do not need to be 
doing the easy things anymore.
    We talk a lot around here about let's go after the low-
hanging fruit, and I think sometimes we think that if it is too 
small we are not making a difference, we have not addressed the 
urgency of now that you all speak to.
    Can you share with us your observations in this regard that 
doing a little bit every day, maybe this incremental, I think 
you said, Ms. Ladislaw, moderate climate policy need not be 
mediocre which I think is well said.
    But we are kind of dealing with the rhetoric around here. 
We have a Green New Deal that is out there that is going to be 
everything to everybody. We are going to be 100 percent 
renewable in a couple decades. It makes it all sound so easy. 
Then people come to us and say, well why haven't you made it 
happen? So some of this is about managing expectations while at 
the same time we are pushing ourselves on a daily basis.
    But can we have a couple minutes of discussion about why it 
is also important not to overlook the smaller, more incremental 
things that clearly are making a difference there? And I throw 
it out to any of you.
    Mr. Silverman. I'll go ahead and start.
    I love energy efficiency because it is such a cost-
effective, commonsense, you know, it's what I tell my daughter, 
right? Shut the light off when you leave the room.
    The Chairman. It's what everybody can contribute.
    Mr. Silverman. Absolutely.
    But here's the business model challenge that my company 
faces when we try to drive energy efficiency spend because we 
go in and we're competing with the utility monopoly and they 
don't want to give us access to the meters. They don't want to 
give us access to the customers. We can do on bill financing of 
energy efficiency improvements.
    These problems actually have been solved in one state which 
is Texas where they actually have really restricted the utility 
to being the monopoly utility to being the poles and wires 
company and the rest of us are out there in the market doing 
really crazy, fun, interesting energy efficiency retail demand 
response products.
    We actually compete with other competitive suppliers on who 
has the best rate for retail demand response, you know, where 
we send out a text message and if you reduce your electricity 
over the next hour, you get paid.
    I mean, these are the kind of innovative products, but 
really outside of Texas, our ability to compete to provide 
those products and take them to consumers and market to 
consumers is either restricted or entirely non-existent.
    The Chairman. Go ahead.
    Mr. Sandalow. Senator, my favorite energy efficiency 
investment are white roofs, cool roofs. They are so simple and 
so cheap and so low tech, but in warm climates, simply painting 
your roof white will save a lot in terms of air conditioning. 
Some places do it, some places don't. There are lots of other 
examples of that type of investment that we can make.
    Senator Manchin. How about black roofs in real cold areas?
    Mr. Sandalow. Don't know if that helps, Senator.
    The Chairman. Well, I do know that it has impact on the 
wind turbines, the color that you paint the blade to keep them 
from icing is darker blades.
    Mr. Sandalow. It's just a great example of the type of 
simple changes that we can make. And you know, I think we also 
need to be doing leading R&D on things like carbon fiber 
materials that are very lightweight that can be used in 
vehicles to save energy. I mean, there's lots of high-tech 
research to be needed, but also just some very simple things we 
can do and government policies can help to push those out into 
the marketplace.
    The Chairman. Ms. Ladislaw?
    Ms. Ladislaw. So, just very quickly on the psychology of 
the issue, right?
    We're not going to be done with this climate problem, 
right? So the idea that we do a thing and that it's solved, 
we're behind. And the volume and the magnitude of the Green New 
Deal isn't wrong, we're just that behind.
    But we need to do like an improv class approach, right? A 
lot less of the ``no, but'' and a lot more of the ``yes, and'' 
because we just have to build momentum. That's really key to a 
lot of these solutions.
    So on energy efficiency it really does make a lot of sense. 
It is one of those areas where a price on carbon may not, 
doesn't make that much of a difference and you know, when we 
have the government shutdown, right? We really learned how very 
close the American public lives to not having enough money to 
pay their bills. Even if efficiency makes sense, they don't 
have the cash to do it.
    So if we're going to make, sort of, you know, progress on 
some of those issues, we need to have this consistent, let's 
learn from what has worked, let's learn from what hasn't worked 
and let's keep going and sort of keep revisiting these things 
because if we're going to re-engineer the entire economy to be 
net zero if we're going to tackle the carbon management side of 
this problem. And that's not resilience. So yes, and keep doing 
stuff that's working, revisit it on a regular basis. The small 
stuff really does add up.
    The Chairman. Senator Manchin, do you want to step in?
    Senator Manchin. I just want to say that first of all, I 
appreciate it, this has been a wonderful, informative 
discussion that we have had. I think you have been so helpful, 
and I think everyone on this Committee has enjoyed it that has 
been here.
    I am going to take my State of West Virginia. We are still 
producing 91 percent of our power from coal-fired units. 
Nothing has changed except the prices have gone up for some of 
the most challenged incomes of people anywhere. They are on the 
front end. They get beat up unmercifully and all we have done 
is drive the price of coal-fired plants to the point to try to 
make our renewables look more competitive and it is just 
causing a tremendous hardship. We were so attractive to 
industries in manufacturing because we were in the four-cent 
category per kilowatt-hour. We are up to six and eight and ten 
cents now in the commercial arena. We used to be at six and 
eight cents in residential. We are at 12. We are up to the 
national average.
    That is what you cannot sell. And you want to know why we 
lose the rural areas? It makes no sense to them. Why are you 
punishing the people who have done the heavy lifting?
    Mr. Bryce, I think you are an all-in energy person, but you 
are very pragmatic about your approach. If we are going to do 
something, let's do it and don't dillydally around. I think my 
good friend, Angus King, says there's still an awful lot of 
energy property that he can put a lot more renewables on. That 
is fine, but I understand the grid system is not there to 
deliver what you can produce in those empty areas and that cost 
would be pretty extravagant.
    What is the quickest solution, is nuclear? Bill Gates is 
giving me the same kind of spiel you have given me on what he 
is trying. Bill Gates says, listen, Joe. He said everybody 
talks a good game. I put my money where my mouth is. I have 
spent billions. I can tell you what works and doesn't work. I 
can tell you what is aspirational and what is doable. And he is 
big on this nuclear, but like you said, speaking of Catherine 
Cortez Masto, our Senator, she says, why do you keep pushing it 
on me? Why is it Nevada? Why is it Yucca Mountain? Where are we 
going to get rid of this stuff? And it lasts for eternity, so?
    Just give me a real quick response on where you stand on 
what you think is the quickest change we can make within that 
ten-year window. Use the ten-year window.
    Mr. Bryce. Well, I think in the ten-year window I think 
it's going to be U.S. exports of natural gas that are going to 
make the biggest effect on decarbonization.
    There was a report recently out of Singapore that Shell has 
offered a Japanese company to supplant the coal-fired power 
plant, that they want to provide them with a long-term LNG 
contract. So, the maturation of the global LNG market is----
    Senator Manchin. They are going to take a coal plant that 
has a lot of use of life?
    Mr. Bryce. The proposed coal plant would not be built, 
instead it would be supplied by natural gas.
    Senator Manchin. Okay.
    Mr. Bryce. In Japan.
    But my quick response overall, Senator, is I'm incredibly 
optimistic. I'm a humanist. I've been traveling the world the 
last three years looking at what's going on. The prize for 
companies that create key innovations, yes, government policy 
can have an effect, but the global energy market is a $5 
trillion a year business. And so, the U.S. Government can 
affect policy, but those policy results are going to be 
limited.
    And I'll just end with this. Again, this is not just a U.S. 
issue. There are three billion people, roughly today, in the 
world who use less electricity than my kitchen refrigerator. 
So, the defining inequality in the world today is about 
electricity and energy poverty and these countries that in 
India, Lebanon, places I visited, they are not going to sit 
around and say, well yes, we may want clean energy, but we want 
electricity now.
    Senator Manchin. Well, rural India is a good example.
    Mr. Bryce. Exactly.
    Senator Manchin. They don't care what comes out of the 
smokestack.
    Mr. Bryce. Or they're relying on diesel or fuel oil-fired 
generators which are expensive but, in many cases, that's their 
only option.
    Senator Manchin. Yes.
    The Chairman. Welcome to rural Alaska where so many of our 
villages are still powered by diesel-powered generation. That 
is it. They get their fuel brought in by barge twice a year and 
some years they do not judge correctly how cold and how long 
that winter is going to be, so they run out of fuel in 
February. The river is still locked in with ice.
    How do they get their fuel? It is flown in 50-gallon 
barrels at a time.
    So if you do not think it is already costly enough--to be 
locked into a fuel price that was set eight months prior and 
you have full transportation costs coming from the Lower 48 up 
the coast and up into the Yukon. But what is your alternative? 
What is your alternative?
    And so, as difficult as it is in many parts of the world 
that we would consider Third World countries, when we talk 
about energy poverty, Alaska is poster child for the land of 
riches and abject poverty when it comes to meeting energy 
needs. That is why we feel like we're the incubator of some 
really cool and innovative ideas, because when I can go out to 
a village like Kwigillingok, you have 400, 500 people in there. 
They have been powered by diesel for as long as anybody in that 
village can remember. They have a couple wind turbines that are 
clicking along. A little bit of a storage facility. It looks 
like a couple outhouses put together, lifted up off the tundra 
that you go inside, looks like little Chevy Volt batteries that 
are there, probably nothing more sophisticated than that. And 
on the day that I was there, everyone says, can you hear that? 
I am like, I cannot hear anything. And they said, that is the 
point. The generators are off. The generators were off for 
three days of quiet. And for that community, it was life 
changing.
    And so, incrementally, in little bits and pieces, this is 
where I get so excited about microgrids and thank you, Dr. 
Majumdar, for your leadership when we had National Lab Day up 
in Fairbanks last year. You saw some of the innovation that not 
only is going on within our national labs but what is going on 
within our living laboratories up north with these microgrids, 
what we are able to do. Sometimes it is not even engineers, it 
is people that just know how to fix an engine. And they are 
working good ideas, a little bit of duct tape and some rope and 
it is amazing what you can make happen.
    Senator King. Madam Chair, in Maine we call those people 
the guy you call when the horse falls down the well.
    [Laughter.]
    That is native engineering skill.
    The Chairman. I will remember that. We do not have a lot of 
horses that might fall into the well.
    Senator King. Okay, the moose.
    The Chairman. The moose that falls into the well.
    [Laughter.]
    Thank you all. This has been very, very interesting and 
provocative and helpful to us.
    Know that we will count on you as resources as we continue 
our discussion, but I appreciate each of you and what you have 
helped fill the record out.
    With that, the Committee stands adjourned for yet another 
fun return to the Energy and Natural Resources Committee.
    [Whereupon, at 11:58 a.m. the hearing was adjourned.]

                      APPENDIX MATERIAL SUBMITTED

                              ----------                              

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre></body></html>
